<html>
<title> - THE REPORT OF THE SPECIAL ADVISOR TO THE DIRECTOR OF CENTRAL INTELLIGENCE FOR STRATEGY REGARDING IRAQI WEAPONS OF MASS DESTRUCTION PROGRAMS</title>
<body><pre>[Senate Hearing 108-855]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-855
 
     THE REPORT OF THE SPECIAL ADVISOR TO THE DIRECTOR OF CENTRAL 
 INTELLIGENCE FOR STRATEGY REGARDING IRAQI WEAPONS OF MASS DESTRUCTION 
                                PROGRAMS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 6, 2004

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

23-081 PDF                       WASHINGTON : 2005 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  



























                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




















                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

     The Report of the Special Advisor to the Director of Central 
 Intelligence for Strategy Regarding Iraqi Weapons of Mass Destruction 
                                Programs

                            october 6, 2004

                                                                   Page

Duelfer, Charles A., Special Advisor to the Director of Central 
  Intelligence on Iraq's Weapons of Mass Destruction.............     6
McMenamin, Brig. Gen. Joseph J., USMC, Commander, Iraq Survey 
  Group..........................................................    18

                                 (iii)


     THE REPORT OF THE SPECIAL ADVISOR TO THE DIRECTOR OF CENTRAL 
 INTELLIGENCE FOR STRATEGY REGARDING IRAQI WEAPONS OF MASS DESTRUCTION 
                                PROGRAMS

                              ----------                              


                       WEDNESDAY, OCTOBER 6, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:44 p.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Sessions, Talent, Graham, Cornyn, Levin, Kennedy, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Dayton, Clinton, and 
Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Regina A. Dubey, research assistant; 
and Paula J. Philbin, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Madelyn R. Creedon, minority 
counsel; Richard W. Fieldhouse, professional staff member; and 
William G.P. Monahan, minority counsel.
    Staff assistants present: Andrew W. Florell, Bridget E. 
Ward, and Nicholas West.
    Committee members' assistants present: Darren M. Dick, 
assistant to Senator Roberts; Arch Galloway, assistant to 
Senator Sessions; Lindsey R. Neas, assistant to Senator Talent; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Meredith 
Moseley, assistant to Senator Graham; Russell J. Thomasson, 
assistant to Senator Cornyn; Sharon L. Waxman and Mieke Y. 
Eoyang, assistants to Senator Kennedy; Elizabeth King, 
assistant to Senator Reed; Davelyn Noelani Kalipi, assistant to 
Senator Akaka; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator E. Benjamin Nelson; 
Mark Phillip Jones, assistant to Senator Dayton; Andrew 
Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets today to receive the 
testimony from Charles A. Duelfer, the Special Advisor to the 
Director of Central Intelligence (DCI) on Iraq's Weapons of 
Mass Destruction (WMD), concerning his report on efforts to 
determine the status of WMD and related programs in Iraq. Mr. 
Duelfer is joined by Brigadier General Joseph P. McMenamin, 
United States Marine Corps, Military Commander of the Iraqi 
Survey Group (ISG).
    This is the sixth time the committee has received testimony 
from the top leaders of the ISG. Our committee views the work 
of this group as a very important part of our overall policy, 
objectives, and aims in Iraq.
    We welcome both. We thank you for your service under 
difficult and often personally dangerous conditions. When 
Senator Stevens, Senator Hollings, and I met with Mr. Duelfer 
and the ISG in Baghdad this past March, we witnessed first-hand 
the damaged vehicles that you utilize in the daily operation of 
your work and the consequent hazards that you face, not only 
yourself but all of your team. America, indeed the world, is 
indebted to you for this risky operation that you have 
performed and are continuing, General, to perform.
    The mission of the ISG has been to search for all facts--
and I repeat, all facts--relevant to the many issues involving 
Iraqi WMD and related programs, their status in the past and 
today, and what they might have been in the future. This very 
complex, difficult mission will continue until all possible 
leads are exhausted. Patience will continue to be required to 
ensure that this mission is completed with a thorough 
assessment of all facts.
    I think we should step back a minute in history and 
remember that the issue of Iraq's possession and use of WMD has 
a long history. Iraq used chemical weapons against Iran during 
the Iran-Iraq War and against their own people, the Kurds.
    In 1991, following the first Gulf War, the United Nations 
(U.N.) Security Council adopted Resolution 687, which stated 
``Iraq shall unconditionally accept the destruction, removal, 
or rendering harmless under international supervision all 
chemical and biological weapons and stocks of agents and 
related subsystems and components and all research, 
development, support, and manufacturing facilities related 
thereto, all ballistic missiles with a range greater than 150 
kilometers and related major parts and repair and production 
facilities.''
    This was a clear statement of policy by the world community 
confirming the existence of such weapons and programs.
    What followed was 12 years of Iraqi obstruction and 12 of 
the 17 additional U.N. Security Council resolutions demanding 
Iraq compliance with its 1991 obligations to destroy its WMD 
and capabilities. In other words, the U.N. had to repeatedly 
try to enforce the purposes of Resolution 687 with subsequent 
resolutions. There was no doubt about Iraq's capabilities and 
intentions in this area in that period.
    Now, in November 2002 U.N. Security Council Resolution 1441 
recognized--I underline the word ``recognized''--and I quote 
it, ``the threat Iraq's noncompliance with Council resolutions 
and proliferation of weapons of mass destruction and long-range 
missiles poses to international peace and security.''
    Continuing, it said: ``The fact that Iraq has not provided 
an accurate, full, final, and complete disclosure, as required 
by Resolution 687 of all aspects of its programs to develop 
weapons of mass destruction and ballistic missiles.''
    We are still to this day seeking a full, final, and 
complete disclosure of all the facts on this issue, and I 
compliment both of you for your efforts to achieve that goal. 
In this hearing today we will receive your assessment of what 
has been accomplished, what conclusions have been reached 
concerning Iraqi WMD programs, and what, in your professional 
judgment, remains to be done by the ISG.
    The findings of Mr. Duelfer and the ISG have been 
significant. While the ISG has not found stockpiles of WMD, the 
ISG and other coalition elements have developed a body of fact 
that shows that Saddam Hussein had: first, the strategic 
intention to continue to pursue WMD capabilities; and second, 
created ambiguity about his WMD capabilities that he used to 
extract concessions from the international community. He used 
it as a bargaining tactic and as a strategic deterrent against 
his neighbors and others.
    He had ongoing WMD research programs. He also had a 
capability for quickly reviving chemical weapons production, on 
a large scale within months. Examples: mustard gas within 3 to 
6 months and nerve agents within 2 years.
    Furthermore, Saddam Hussein deceived U.N. inspectors for 
over 12 years. Lastly, he systematically attempted to thwart 
and undermine U.N. and other international sanctions.
    These are important lessons we must apply to current and 
future U.S. and international efforts to stop the scourge of 
proliferation of such weapons elsewhere in the world.
    It is clear from your statements, and Mr. Duelfer's 
reports, that your conclusions differ from the prewar 
assessments of our Intelligence Community, differ from the 
assessments of the U.N., and differ from the assessments of 
intelligence services of many other nations. That is a cause 
for concern. The Intelligence Committee report on prewar 
intelligence concerning WMD programs concluded that there were 
shortcomings in the intelligence provided to the policymakers 
and to Congress. Your report lends credence to the conclusions 
of that committee. My understanding, I am a member of that 
committee, is that you testified before that committee this 
morning.
    We must understand why and take corrective measures. Our 
policymakers must be able to rely on the intelligence they are 
provided and our battlefield commanders must have sound 
intelligence. The lives of our men and women in uniform and 
many others are dependent on that intelligence, as is the 
security of our Nation.
    As we speak, over 1,700 individuals, military and civilian, 
are in Iraq and Qatar, continuing the search for facts about 
Iraq's WMD programs. The ISG has had some of the best and the 
brightest of our military and our Intelligence Community to 
accomplish this task, and we thank them for their service.
    Thank you, Mr. Duelfer, for the service that you have 
provided to our Nation; and, General McMenamin, for the service 
that you and the ISG are continuing to provide. We look forward 
to your testimony.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    The committee meets today to receive testimony from Charles A. 
Duelfer, the Special Advisor to the Director of Central Intelligence 
Regarding Iraqi Weapons of Mass Destruction Programs concerning his 
report on efforts to determine the status of weapons of mass 
destruction and related programs in Iraq. Mr. Duelfer is joined by 
Brigadier General Joseph J. McMenamin, USMC, Military Commander of the 
Iraq Survey Group. This is the sixth time the Committee has received 
testimony from the top leaders of the Iraq Survey Group.
    We welcome Mr. Duelfer and General McMenamin today. We thank you 
for your service under difficult, dangerous conditions. When Senator 
Stevens, Senator Hollings and I met with Mr. Duelfer and the ISG in 
Baghdad in March, the bullet-riddled vehicles outside your headquarters 
were testament to the hazards you and your team endure on a daily 
basis.
    The mission of the Iraq Survey Group has been to search for all 
facts relevant to the many issues involving Iraqi weapons of mass 
destruction and related programs. This very complex, difficult mission 
will continue on until all possible leads are exhausted. Patience will 
continue to be required to ensure we complete a thorough assessment of 
this important issue.
    In this hearing today, we will receive your assessment of what has 
been accomplished, what conclusions you have reached concerning Iraqi 
WMD and programs, and what, in your professional judgment, remains to 
be done by the Iraq Survey Group.
    The findings of the Mr. Duelfer and the Iraq Survey Group have been 
significant. While the ISG has not found stockpiles of WMD, the ISG and 
other coalition elements have developed a body of fact that shows that 
Saddam Hussein had:

        <bullet> the strategic intention to continue to pursue WMD 
        capabilities;
        <bullet> created ambiguity about his WMD capabilities that he 
        used to extract concessions on the international stage and as a 
        strategic deterrent;
        <bullet> ongoing WMD research programs;
        <bullet> a capability for quickly reviving chemical weapons 
        production on a large scale within months--mustard gas within 
        3-6 months and nerve agents within 2 years;
        <bullet> deceived U.N. inspectors for over 12 years; and
        <bullet> systematically attempted to thwart and undermine U.N. 
        and other international sanctions.

    These are important lessons we must apply to current and future 
U.S. and international efforts to stop the scourge of proliferation 
around the world.
    It is clear from your statements and Mr. Duelfer's report that your 
conclusions differ from the pre-war assessments of our intelligence 
community, differ from the assessments of the U.N., and differ from the 
assessments of intelligence services of many other nations. That is 
cause for concern. The Intelligence Committee report on pre-war 
intelligence concerning WMD programs concluded that there were 
shortcomings in the intelligence provided to the policymakers and to 
Congress. Your report lends credence to those conclusions. We must 
understand why and take corrective measures. Our policymakers must be 
able to rely on the intelligence they are provided, and our battlefield 
commanders must have sound intelligence. The lives of our men and women 
in uniform depend on it, as does the security of our Nation.
    As we speak, over 1,700 individuals--military and civilian--are in 
Iraq and Qatar continuing the search for facts about Iraq's WMD 
programs. The ISG has some of the best and the brightest of our 
military and our Intelligence Community to accomplish this task, and we 
thank them for their service.
    We thank Mr. Duelfer for the service he has provided to our Nation 
and General McMenamin for the service he and the ISG continue to 
provide. We look forward to your testimony.

    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me first join 
you in welcoming our witnesses, Mr. Duelfer and General 
McMenamin. Thank you both for your presence and for your 
service to this Nation.
    The Iraq Survey Group began its mission in June 2003. Its 
mission was very clear and it was stated to be the following by 
the former DCI, George Tenet: ``Search for Iraq's weapons of 
mass destruction.'' It has been 15 months since the ISG began 
its work. The ISG, with some 1,750 employees and having made 
visits to 1,200 suspect WMD sites, has not found WMD in Iraq, 
nor evidence that Iraq had stockpiles of such weapons at the 
start of the war.
    It is important to emphasize that central fact because the 
administration's case for going to war against Iraq rested on 
the twin arguments that Saddam Hussein had existing stockpiles 
of WMD and that he might give WMD to al Qaeda to attack us, as 
al Qaeda had attacked us on September 11. So the fundamental 
conclusion of the ISG effort means that the administration's 
two major arguments for going to war against Iraq were 
incorrect.
    We did not go to war because Saddam had future intentions 
to obtain WMD. The administration told the American people that 
we had to attack Iraq because Iraq possessed stockpiles of WMD 
and that they were allied with terrorists like al Qaeda, to 
whom Iraq would like to give such weapons.
    Here are just a few examples:
    In August 2002, Vice President Cheney said, ``Simply 
stated, there is no doubt that Saddam Hussein now has weapons 
of mass destruction. There is no doubt he is amassing them to 
use against our friends, our allies, and against us.''
    President Bush asserted on September 26, 2002, that, ``The 
Iraqi regime possesses biological and chemical weapons.'' One 
day later he spoke of ``The stockpiles of anthrax that we know 
he has or VX, the biological weapons which he possesses.''
    In September 2003, Vice President Cheney described Iraq as 
the ``geographic base of the terrorists who have had us under 
assault now for many years, but most especially on September 
11.''
    On October 7, 2002, President Bush said: ``Iraq could 
decide on any given day to provide a biological or chemical 
weapon to a terrorist group or individual terrorists. Alliance 
with terrorists could allow the Iraqi regime to attack America 
without allowing any fingerprints.''
    In his March 17, 2003, speech to the Nation on the eve of 
the war, President Bush said, ``The danger is clear. Using 
chemical, biological, or one day nuclear weapons obtained with 
the help of Iraq, the terrorists could fulfill their stated 
ambitions and kill thousands or hundreds of thousands of 
innocent people in our country or any other.''
    Now, these are just a few examples of many similar 
statements made by senior administration officials before the 
war. So today before we delve into a speculative discussion 
about Saddam's possible future intentions with respect to WMD, 
it is important to return to the starting point for the 
administration's argument for going to war. Namely, that Saddam 
possessed stockpiles of chemical and biological weapons and 
might give them to terrorists to attack us.
    We have heard many claims before the war about Iraq's 
weapons and efforts to build more deadly weapons. The American 
people were told about aluminum tubes that Vice President 
Cheney said we knew with ``absolute certainty'' were intended 
for nuclear weapons, and which Condoleezza Rice said were 
``really only suitable for nuclear weapons programs.''
    We were told about unmanned aerial vehicles (UAVs) in 
Saddam Hussein's possession that were intended for delivering 
biological weapons, including against the U.S. homeland. We 
were told about Iraqi efforts to obtain uranium from Africa. 
These allegations, like the assertions about Iraq having WMD 
and their stockpiles, were all wrong, and that is what today's 
report will state.
    After the war started, the administration began an effort 
to change the subject of the debate, from the actual presence 
of WMD to WMD programs, then to WMD-related program activities, 
and more recently to speculation about intentions. However, 
that effort cannot obscure the historical fact and the critical 
fact that is most critical to the American people, that, as 
President Bush's Press Secretary acknowledged ``Iraq has 
weapons of mass destruction. That is what the war was about and 
is about.''
    We welcome this report today. We commend both of you again 
for making yourselves available today. We also want to thank 
you for making this an unclassified report. Given the 
importance of this issue, the public deserves to know as much 
as possible about the details. We look forward to your 
testimony.
    Chairman Warner. Thank you, Senator Levin.
    Mr. Duelfer.

    STATEMENT OF CHARLES A. DUELFER, SPECIAL ADVISOR TO THE 
  DIRECTOR OF CENTRAL INTELLIGENCE ON IRAQ'S WEAPONS OF MASS 
                          DESTRUCTION

    Mr. Duelfer. Senators, thank you very much for the 
opportunity to appear here today.
    Chairman Warner. You have an extensive prepared written 
statement, which will be placed into the record in its 
entirety. The same with you, General.
    Mr. Duelfer. Okay, thank you.
    I would also like to thank those of you who came out and 
visited in Baghdad. That means a lot to the people doing this 
work, to know that there are people who really are interested 
in the work that goes on out there. I know it is a difficult 
trip to make. It is not a safe trip to make but I welcome it. I 
know that General McMenamin welcomes it and I think it is a 
useful thing to do. You do get a sense of what goes on on the 
ground. Thank you very much.
    The relationship between Iraq and the rest of the world has 
been complicated and dangerous for three decades, a dilemma 
that has confounded the international community through much of 
recent history. Three wars, devastating sanctions, and an 
endless progression of intelligence crises have eroded or 
ruined thousands of lives. The region and Iraq are both 
complicated and unstable and obviously very dangerous. Weapons 
of mass destruction have added to the uncertainty and risk 
posed by an unpredictable and clearly aggressive regime in 
Baghdad.
    This report is not simply an accounting of the program 
fragments that we have examined in the aftermath of the recent 
war and the ongoing conflict. Nor is it my aim merely to 
describe the status of a program at a single point in time. The 
complexity and importance of the question deserve a more 
synthetic approach in my opinion. Instead, the objective of 
this report is to identify the dynamics of the regime's WMD 
decisions over time. I want to identify the area under the 
curve, not just a single point on a trend line that may be 
going up or down. In other words, this problem deserves 
calculus, not algebra. Thus, the report I have prepared 
attempts to describe Iraqi WMD programs, not in isolation, but 
in the context of the aims and objectives of the regime that 
created and used them, which is not to say that I am not going 
to look at the artifacts and what we did find at the given 
point in time when we began work.
    I have also insisted that the report include as much basic 
data as reasonable and that it be unclassified. Since the 
tragedy that has been Iraq has exacted such a huge cost for so 
many for so long, I feel strongly that the data we have 
accumulated be presented in as thorough a manner as possible to 
enable others to draw their own conclusions. Certainly I have a 
concept of the dynamics that underlay the course that Saddam 
followed with WMD and this is conveyed in the report. Others, 
including Iraqis themselves, may examine this and conclude 
otherwise.
    The report consists of six chapters and includes, at the 
end, a timeline showing key events that bear on the Iraqi WMD 
program. Aiming to introduce the reader to the Iraqi frame of 
reference, the report begins with an analysis of the nature of 
the regime and its aims in chapter one. As compared with most 
countries, fathoming the intentions of the regime is made 
easier in Iraq because it really boils down to understanding 
one person, Saddam Hussein, who was the regime. The highly 
personalized nature of the Iraqi dictatorship under Saddam, 
with its multiplicity of security organs and unclear, often 
overlapping lines of authority, progressively created a 
governmental system of operating alien to those steeped in the 
norms of western democracies.
    An understanding of the workings of the Iraqi system of 
governance is important so that evidence, or the lack of 
evidence, can be evaluated within the frame of reference of 
Baghdad and not the frame of reference of Washington, London, 
or Canberra. For example, given the nature of Iraqi governance, 
one should not look for much of an audit trail on WMD. Even 
Saddam's most senior ministers did not want to be in a position 
to tell him bad news or make recommendations from which he 
would recoil. The most successful and long-lived advisors were 
those who could anticipate his intentions. Hence, there was a 
very powerful role for implicit guidance. This was particularly 
the case for the most sensitive issues, such as actions related 
to human rights or WMD.
    This dynamic limits the evidence that one might expect to 
find, that is, little documentation or senior advisors who 
could honestly say that they had instructions on certain 
matters. This of course makes it risky to draw conclusions 
about the absence of evidence, a continuous problem that we 
found in Iraq.
    Further obfuscating the picture is the fact that Baghdad 
had long experience in dealing with inspection by western 
outsiders. From the experience of dealing with U.N. inspectors, 
the Iraqis learned a great deal about what signatures we looked 
for, and I point out I spent many years in that activity 
myself. Iraqis generally knew a lot more about us than we did 
about them. For various reasons, their ability and desire to 
conceal their intentions and capabilities were quite good.
    Beyond a discussion of how the regime operated, the report 
also provides a sense of Saddam's goals, aspirations, and 
political vision as a means to better understand his decisions 
about WMD, their development, use, and destruction and role in 
the future realization of his political-military aims for the 
Iraqi nation.
    We have tried to understand his objectives and how he 
developed and used power. I point out that after the 1991 war 
Saddam established as his prime objective, taking into account 
survival of course, the termination of U.N. sanctions on Iraq 
and he weighed all policy actions and steps for their impact on 
this overarching objective.
    Saddam committed the brightest minds and much national 
treasure to developing WMD. Moreover, Saddam saw this 
investment as having paid vital dividends. Senior Iraqis state 
that only through the use of long-range ballistic missiles and 
the extensive use of chemical weapons did Iraq avoid defeat in 
the war with Iran, and there was a second, less obvious 
instance where the regime attributes its survival to the 
possession of WMD. In the run-up to the 1991 war, Iraq loaded, 
dispersed, and Saddam pre-delegated the authority to use 
biological and chemical weapons if the coalition proceeded to 
Baghdad.
    The regime and Saddam believed that the possession of WMD 
deterred the United States from going to Baghdad in 1991. 
Moreover, it has been clear, in my discussions with senior 
Iraqis, that they clearly understand that they blundered in 
invading Kuwait before completing their nuclear weapons 
program. Had they waited, the outcome would have been quite 
different.
    Finally, Saddam also used chemical weapons for domestic 
purposes, in the late 1980s against the Kurds and, as we 
learned in our work at ISG, during the Shia uprisings 
immediately after the 1991 war.
    Again, in this first chapter, aspects of Saddam's 
decisionmaking were examined by identification of several key 
inflection points when Saddam made a choice affecting WMD. 
Several such points have been identified and dissected to see 
the dynamics of these decisions. This tool of using a timeline 
and identifying key inflection points is also useful in 
tracking his strategy and tactics toward the U.N. and the 
sanctions imposed by the U.N. Security Council. Saddam's 
personal direction of much of Iraq's relations with the U.N. 
reflected his approach to influence and is described in some 
detail in the report.
    Overall, the hope is that not only will we see what Saddam 
decided to do with WMD, but why. This may be instructive for 
future policy considerations and certainly for future 
intelligence considerations.
    The second chapter of the report is an extensive analysis 
of Iraq's financing and procurement, our bid to identify the 
resources available to Baghdad and examine how they were 
allocated. We made it a high priority to obtain complete 
information from the Oil Ministry and the State Oil Marketing 
Organization. These data were extremely valuable in obtaining 
an understanding of how the regime operated in its priorities. 
This is a way of bounding the problem in a sense. Because Iraq 
had limited resources, that was one of the ways we could 
delimit our analysis. It turned out to be quite instructive.
    Our investigation makes clear that the top priority for 
Saddam was to escape the economic stranglehold of the U.N. 
sanctions. Sanctions limited his ambitions in many ways and 
took an enormous toll on Iraqi society. The disintegration of 
the middle class, civil infrastructure, the health system, and 
the blight on the hope of young Iraqis were clear through the 
1990s. The U.N. Security Council, in attempting to mitigate the 
effects of sanctions on innocent Iraqis, created the Oil-for-
Food program. It is instructive that the regime rejected the 
opportunity to export oil for civil goods until conditions were 
so bad that they threatened the survival of the regime.
    This chapter makes clear the range of steps the regime took 
to erode support for and the efficacy of the U.N. sanctions 
program. The steps the regime took to erode sanctions are 
obvious in the analysis of how revenues, particularly those 
derived from the Oil-for-Food program, were used. Over time 
sanctions had steadily weakened, to the point where Iraq, in 
roughly the 2000 to 2001 time frame, was confidently designing 
missiles around components that could only be obtained outside 
of sanctions. Moreover, illicit revenues grew to quite 
substantial levels during this same period, and it is 
instructive to see how and where the regime allocated these 
funds.
    Our investigation also makes quite clear how Baghdad 
exploited the mechanism for executing the Oil-for-Food program 
to give individuals and countries an economic stake in ending 
sanctions. The regime followed a pattern that Saddam has 
applied throughout his career of offering rewards and a 
rationale for accepting them, successfully arguing its case 
that the sanctions were harming the innocent and that the moral 
choice was to elude and diminish them.
    It is grossly obvious how successful the regime was. It is 
also grossly obvious how the sanctions perverted not just the 
national system of finance and economics, but to some extent 
international markets and organizations. The procurement and 
finance section notes that a sizable portion of the illicit 
revenues generated under the Oil-for-Food program went to the 
Military-Industrial Commission, that is the government-run 
military-industrial establishment. The funding for this 
organization, which had responsibility for many of the past WMD 
programs, went from approximately $7.8 million in 1998 to $350 
million in 2001. During this period of growing resource 
availability, many military programs were carried out, 
including many involving the willing export to Iraq of military 
items prohibited by the Security Council. I would note that 
some members of the Security Council participated in violating 
those very same resolutions.
    The remaining four chapters deal with the different types 
of WMD programs which Iraq had previously worked. The first of 
these, the delivery system chapter, describes the work Iraq had 
been pursuing with respect to missiles and UAVs. Iraq continued 
to work on missile delivery systems in the wake of the Gulf 
War. Some missile activity was permitted in fact by the U.N. 
resolutions.
    Saddam drew a distinction, however, between long-range 
missiles and other WMD, a distinction not drawn in the U.N. 
resolutions. Iraq's missile development infrastructure 
continued to develop under sanctions and included work on 
propulsion, fuels, and even guidance systems. As more funding 
became available following the implementation of the Oil-for-
Food program, Saddam directed more missile activities. In the 
latter years, more foreign assistance was brought in, including 
both technology and technical expertise.
    While it is clear that Saddam wanted a long-range missile, 
there was little work done on warheads. It is apparent that he 
drew the line at that point, so long as sanctions remained. 
However, while the development of ballistic missile delivery 
systems is time-consuming, if and when Saddam decided to place 
a nonconventional warhead on the missile this could be done 
quite quickly. The chemical weapons and biological weapons 
warheads put on Iraqi missiles in 1990 and 1991, for example, 
were built in months.
    A couple of points are of interest from the Iraqi missile 
efforts. One is that they did not abide by the range limits set 
in U.N. Security Council Resolution 686. The range capabilities 
of the ballistic missiles they were developing exceeded the 
stated limits. Iraq also used components from SA-2 surface-to-
air missile engines that they had been expressly prohibited 
from doing. Iraq also produced fuel that was not declared. They 
also tested UAVs in excess of the range limits.
    Iraq missile developers became so confident that others 
would violate the sanctions that they designed new missile 
systems which depended upon the import of guidance systems, 
which were prohibited by sanctions. Further, they drew upon 
foreign expertise that was readily available for such areas as 
propulsion, again in violation of the sanctions.
    The next chapter is on nuclear programs and it reviews the 
program up to the 1991 war and describes the activities of the 
scientists and engineers following the war. The analysis shows 
that despite Saddam's expressed desire to retain knowledge of 
his nuclear team and his attempts to retain some key parts of 
the program, during the course of the following 12 years Iraq's 
ability to produce a weapon decayed steadily.
    Sanctions and inspections lasted longer than Saddam 
anticipated. The inspections were also much more intrusive than 
expected. Therefore, retention of weapons material put at risk 
his higher immediate objective of escaping sanctions. 
Nevertheless, Saddam's son-in-law and chief weapons developing 
manager, Hussein Kamal, directed that design information and 
very limited physical material be hidden from inspectors. These 
concealment efforts were successful until Hussein Kamal fled to 
Jordan in 1995.
    There were also efforts to retain the intellectual capital 
of nuclear scientists by forbidding their departure from Iraq 
and keeping them employed in government areas. However, over 
time there was decay in the team. Unlike other WMD areas, 
nuclear weapons development requires thousands of knowledgeable 
scientists as well as a large physical plant. Even with the 
intention of keeping these talented people employed, a natural 
decay took place and the time it would take for Iraq to build a 
nuclear weapon tended to increase for the duration of the 
sanctions.
    The Iraqi Atomic Energy Commission utilized the same people 
on a range of projects during the 1990s and addressed technical 
problems akin to those in nuclear weapons development. These 
efforts, however, cannot be explicitly tied to an intention to 
revive a nuclear weapons program.
    Despite this decay, Saddam did not abandon his nuclear 
ambitions. He made his view clear that nuclear weapons were the 
right of any country that could build them. He was very 
attentive to the growing Iranian threat, especially its 
potential nuclear component, and he stated that he would do 
whatever it took to offset the Iranian threat, clearly implying 
matching Tehran's nuclear capabilities.
    Saddam observed that India and Pakistan had slipped across 
the nuclear weapons boundary quite successfully. Those around 
Saddam seemed quite convinced that once sanctions were ended 
and all other things being equal, Saddam would renew his 
efforts in this field.
    The chapters dealing with chemical weapons and biological 
weapons tell somewhat different stories. In the chemical 
weapons area, the Iraqis had long experience with production 
and use of mustard and nerve agents. In Baghdad's view, these 
weapons saved Iraq from defeat in the war with Iran and, in 
combination with biological weapons capabilities, deterred the 
United States from deposing the regime in 1991. Following the 
Iran-Iraq War, Iraqi chemical weapons activity shifted from 
production to research and development of more potent and 
stabilized agents. In contrast to the nuclear field, chemical 
weapons work requires not thousands of scientists, but 
hundreds. The top expertise was developed among a few dozen 
scientists and chemical production engineers.
    Once inspections began in 1991, Iraq chose to yield most of 
its weapons and bulk agent as well as the large facilities that 
were widely known to exist. As in the other WMD areas, Saddam 
sought to sustain the request knowledge base to restart the 
program eventually and, to the extent it did not threaten the 
Iraqi effort to get out from sanctions, he chose to sustain the 
inherent capability to produce such weapons as circumstances 
permitted in the future.
    Over time and with the infusion of funding and resources 
following acceptance of the Oil-for-Food program, Iraq 
effectively shortened the time that would be required to 
reestablish the chemical weapons production capacity. Some of 
this was a natural collateral benefit of developing an 
indigenous chemical production infrastructure. By 2003, Iraq 
would have been able to produce mustard agent in a period of 
months and nerve agent in less than 1 or 2 years. We have not 
come across explicit guidance from Saddam on this point. Yet it 
was an inherent consequence of his decision to develop a 
domestic chemical production capacity.
    Iraq denied it had offensive biological weapons programs to 
inspectors in 1991 and secretly destroyed existing stocks of 
weapons and agent in 1991 to 1992. Iraq decided to retain the 
main biological weapons production facility, but under a guise 
of using it to produce single-cell protein for animal feed. 
These decisions were taken with Saddam's explicit approval. 
Saddam clearly understood the nature of biological weapons. He 
personally authorized their dispersal for use in 1991 against 
coalition forces, Saudi Arabia, and Israel. He clearly took 
steps to preserve this capability and was successful until 
1995.
    Preservation of Iraq's biological weapons capabilities was 
simpler than any other WMD area because of the nature of the 
material. First, the number of experts required is quite small, 
perhaps a couple dozen. Then too, the infrastructure to produce 
agent can be readily assembled from quite simple domestic 
civilian plants. Moreover, little, if any, activity would be 
necessary to keep this option on the shelf.
    Some activity that might have been related to a biological 
program has been examined closely, including work with a bio-
pesticide, bacillus thuringiensis. While this work could have 
been related to advancing Iraqi anthrax knowledge, information 
is inconclusive. This work could and certainly did sustain the 
talent needed to restart a potential biological weapons 
program. However, we can form no absolute conclusion whether 
this work represented active efforts to develop further anthrax 
programs. Given the developing infrastructure in Iraq in the 
late 1990s and early 2000, such a reconstitution could be 
accomplished quite quickly.
    Other aspects of the Iraqi biological weapons program 
remain cloudy. For example, it is still difficult to rule on 
whether Iraq had a mobile biological weapons production effort 
or made any attempts to work with smallpox as a weapon. We were 
able to eliminate some of the questions and resolve some of the 
questions which circulated about the mobile question earlier, 
and I can deal with those in questioning.
    What is clear is that Saddam retained his notions of the 
use of force and had experience that demonstrated the utility 
of WMD. He was making progress in eroding sanctions, a lot of 
progress, and had it not been for the events of September 11, 
2001, things would have taken a very different course for the 
regime. Most senior members of the regime and scientists 
assumed that the programs would begin in earnest when sanctions 
ended, and sanctions were eroding.
    A variety of questions about Iraqi WMD capabilities and 
intentions remain unanswered even after extensive investigation 
by ISG. For example, we cannot yet definitively say whether or 
not WMD materials were transferred out of Iraq before the war. 
Neither can we definitively answer some questions about 
possible retained stocks, though, as I say, it is my judgment 
that retained stocks do not exist.
    Developments in the Iraqi Intelligence Services appear to 
have been limited in scope, and I am referring here to some 
laboratories which were discovered in late 2003 where the Iraqi 
Intelligence Service was found conducting some work in chemical 
and biological areas. But certainly these activities were not 
declared to the U.N. What did they really represent and was 
there a more extensive clandestine activity with another set of 
technical experts? We cannot say yet for certain.
    Opportunities to develop new information are decreasing. 
However, I must mention that we just came into possession of a 
large number of documents recently accumulated by coalition 
forces. The number of these documents is approximately equal to 
the total received since the end of the war and it will clearly 
take many months to examine what has been found and provide an 
initial summary of what they contain.
    Then too, we continue to receive a continuous stream of 
reports about hidden WMD locations. When such reports are 
judged sufficiently credible, ISG conducts an investigation. In 
fact, 2 weeks ago we had a source come to us with a partially 
filled canister from an old--and I repeat and underline, old--
122 millimeter rocket round. These, like others recovered, are 
from pre-1991 stocks and, despite these reports and finds, I 
still do not expect that militarily significant WMD stocks are 
hidden in Iraq.
    A risk that has emerged since my previous report to 
Congress is the connection of former regime chemical warfare 
expertise with anti-coalition forces. The ISG has uncovered 
evidence of such links and undertook a sizable effort to track 
down and prevent any lash-up between foreign terrorists or 
anti-coalition forces and either existing chemical weapons 
stocks or expertise from the former regime that could be used 
to produce such weapons. I believe we got ahead of this problem 
through a series of raids throughout the spring and summer. I 
am convinced that we successfully contained the problem before 
it matured into a major threat.
    Nevertheless, it points to the problem that the dangerous 
expertise developed by the previous regime could be transferred 
to other hands. Certainly there are anti-coalition and 
terrorist elements seeking such capabilities.
    It is my hope that this report will offer a generally 
accurate picture of the evolution and disposition of WMD within 
the former regime. I am quite aware that the Iraqis who 
participated in these programs will be reading this report and 
ultimately will comment upon it. I hope they learn from it and 
do not find too many errors.
    I have spent hours with many of the Iraqi participants, 
both before the war as Deputy Chairman of the U.N. Special 
Commission (UNSCOM) in the 1990s and after the war when many 
were in custody. Many of these individuals are technocrats 
caught in a rotten system. Some, on the other hand, 
wholeheartedly participated in that system. In either case, 
Saddam channeled some of the best and brightest Iraqi minds and 
a substantial portion of Iraq's wealth toward his WMD programs.
    It has of course been very difficult to discern the truth 
from these participants, given the mix of motivations that 
inescapably color the statements of those who remain in 
custody. It is sometimes very difficult to recognize the truth.
    This applies to Saddam himself, especially so. He was a 
special case in all of this. We had the opportunity to debrief 
him for months, but he naturally had limited incentives to be 
candid or forthcoming at all. Nevertheless, many of his 
statements were interesting and revealing. In the end, only he 
knows many of the vital points. Even those closest to him had 
mixed understandings of his objectives. In fact, there was 
uncertainty among some of the closest advisors about WMD and 
whether it even existed.
    With that, Senator, I will end my remarks. Thank you.
    [The prepared statement of Mr. Duelfer follows:]
                 Prepared Statement by Charles Duelfer
    Thank you for inviting me to discuss my report with your committee.
    The relationship between Iraq and the rest of the world has been 
complicated and dangerous for three decades, a dilemma that has 
confounded the international community through much of recent history. 
Three wars, devastating sanctions, and an endless progression of 
international crises have ended or ruined thousands of lives. The 
region and Iraq are both complicated and unstable, and obviously very 
dangerous. Weapons of Mass Destruction (WMD) have added to the 
uncertainty and risk posed by an unpredictable and clearly aggressive 
regime in Baghdad.
    This report is not simply an accounting of the program fragments we 
have examined in the aftermath of the recent war and ongoing conflict, 
nor is it my aim merely to describe the status of a program at a single 
point in time. The complexity and importance of this question deserves 
a more synthetic approach, in my view. Instead, the objective of this 
report is to identify the dynamics of the regime's WMD decisions over 
time. I want to identify the area under a curve, not just a single 
point on a trend line that may be going up or down. This problem 
deserves calculus not algebra, and thus the report I have prepared 
attempts to describe the Iraqi WMD programs not in isolation, but in 
the context of the aims and objectives of the regime that created and 
used them.
    I have also insisted that the report include as much basic data as 
reasonable and that it be unclassified. Since the tragedy that has been 
Iraq has exacted such a huge cost for so many for so long, I feel 
strongly that the data we have accumulated be presented in as thorough 
a manner as possible to enable others to draw their own conclusions. 
Certainly I have a concept of the dynamics that underlay the course 
that Saddam followed with WMD and this is conveyed in the report. 
Others, including Iraqis, may examine this and conclude otherwise.
                               structure
    The report consists of six chapters and includes at the end a 
timeline showing key events that bear on the Iraqi WMD program.
    Aiming to introduce the reader to the Iraqi frame of reference, the 
report begins with an analysis of the nature of the regime and its aims 
in chapter one. As compared with most countries, fathoming the 
intentions of the regime is made easier in Iraq, because it really 
boils down to understanding one person--Saddam Hussein, who was the 
regime. The highly personalized nature of the Iraqi dictatorship under 
Saddam, with its multiplicity of security organs and unclear, often 
overlapping lines of authority progressively created a governmental 
system of operating alien to those steeped in the norms of western 
democracies. An understanding of the workings of the Iraqi system of 
governance is important, so that evidence--or lack of evidence--can be 
evaluated within the frame of reference of Baghdad and not the frame of 
reference of Washington, London, or Canberra.
    For example, given the nature of Iraqi governance, one should not 
look for much of an audit trail on WMD. Even Saddam's most senior 
ministers did not want to be in a position to tell him bad news or make 
recommendations from which he would recoil. The most successful and 
long-lived advisors were those who could anticipate his intentions. 
Hence, there was a very powerful role for implicit guidance. This was 
particularly the case for the most sensitive issues--such as actions 
that related to human rights and weapons of mass destruction. This 
dynamic limits the evidence that one might expect to find, i.e. little 
documentation and senior advisors who could honestly say they never had 
instructions on certain matters. This, of course, makes it risky to 
draw conclusions about the absence of evidence, a continuous problem in 
Iraq.
    Further obfuscating the picture is the fact that Baghdad had long 
experience in dealing with inspection by western outsiders. From the 
experience of dealing with U.N. inspectors the Iraqis learned a great 
deal about what signatures we looked for. Iraqis generally knew a lot 
more about us than we did about them. For various reasons, their 
ability and desire to conceal their intentions and capabilities were 
quite good.
    Beyond a discussion of how the regime operated, the report also 
provides a sense of Saddam's goals, aspirations and political vision, 
as a means to better understand his decisions about WMD, their 
development, use, destruction, and role in the future realization of 
his political-military aims for the Iraqi nation. We have tried to 
understand his objectives and how he developed and used power. After 
the 1991 war, Saddam established as his prime objective (after 
survival) the termination of U.N. sanctions on Iraq, and he weighed all 
policy actions and steps for their impact on this overarching 
objective.
    Saddam committed the brightest minds and much national treasure to 
developing WMD. Moreover, Saddam saw this investment as having paid 
vital dividends. Senior Iraqis state that only through the use of long-
range ballistic missiles and the extensive use of chemical weapons did 
Iraq avoid defeat in the war with Iran. There is also a second, less 
obvious instance where the regime attributes its survival to possession 
of WMD.
    In the run-up to the 1991 war, Iraq loaded, dispersed and pre-
delegated the authority to use both biological and chemical weapons if 
the coalition proceeded to Baghdad. The regime believes its possession 
of WMD deterred the U.S. from going to Baghdad in 1991. Moreover, it 
has been clear in my discussions with senior Iraqis that they clearly 
understand that they blundered in invading Kuwait before completing 
their nuclear weapons program. Had they waited, the outcome would have 
been quite different.
    Finally, Saddam also used chemical weapons for domestic purposes--
in the late 1980s against the Kurds and during the Shia uprisings after 
the 1991 war.
    In this chapter, aspects of Saddam's decisionmaking were examined 
by the identification of several key inflection points, when Saddam 
made a choice affecting WMD. Several such points have been identified 
and dissected to see the dynamics of these decisions. These points 
noted in the timeline attached to the end of the report, portions of 
which are included at the end of individual chapters. The timeline is a 
useful tool through which to retain the ability to assess Iraq's WMD 
decisionmaking from Saddam's perspective and seeing WMD in that 
context.
    This tool was also useful in tracking his strategy and tactics 
toward the United Nations and the sanctions imposed by the U.N. 
Security Council. Saddam's personal direction of much of Iraq's 
relations with the U.N. reflected his approach to influence and is 
described in some detail--again illuminated through examination of key 
decision points.
    Overall, the hope is that not only will we see what Saddam decided 
to do with WMD, but why. This may be instructive for future policy 
considerations and certainly future intelligence considerations.
    Chapter two is an extensive analysis of Iraq's financing and 
procurement, a bid to identify the resources available to Baghdad and 
examine how they were allocated. We made it a high priority to obtain 
complete information from the Oil Ministry and State Oil Marketing 
Organization. These data were extremely valuable in obtaining an 
understanding of how the regime operated and its priorities.
    Our investigation makes clear that a top priority for Saddam was to 
escape the economic stranglehold of U.N. sanctions. Sanctions limited 
his ambitions in many ways, and took an enormous toll on Iraqi society. 
The disintegration of the middle class, civil infrastructure, the 
health system, and the blight on the hope of young Iraqis were clear 
through the 1990s. The U.N. Security Council, in attempting to mitigate 
the effects of sanctions on innocent Iraqis created the Oil-for-Food 
(OFF) Program. It is instructive that the regime rejected the 
opportunity to export oil for civil goods until conditions were so bad 
that they threatened the survival of the regime.
    Chapter two makes clear the range of steps the regime took to erode 
support for, and the efficacy of, the U.N. sanctions program. The steps 
the regime took to erode sanctions are obvious in the analysis of how 
revenues, particularly those derived from the Oil-for-Food program, 
were used. Over time, sanctions had steadily weakened to the point 
where Iraq, in 2000-2001 was confidently designing missiles around 
components that could only be obtained outside sanctions. Moreover, 
illicit revenues grew to quite substantial levels during the same 
period and it is instructive to see how and where the regime allocated 
these funds.
    ISG's investigation also makes quite clear how Baghdad exploited 
the mechanism for executing the Oil-for-Food program to give 
individuals and countries an economic stake in ending sanctions. The 
regime, following a pattern that Saddam has applied throughout his 
career, offered rewards and a rationale for accepting them, 
successfully arguing its case that the sanctions were harming the 
innocent, and that the moral choice was to elude and diminish them. It 
is grossly obvious how successful the regime was. It is also grossly 
obvious how the sanctions perverted not just the national system of 
finance and economics, but to some extent the international markets and 
organizations.
    The Procurement and Finance section notes that a sizeable portion 
of the illicit revenues generated under the Oil-for-Food program went 
to the Military Industrial Commission (the government-run military-
industrial establishment). The funding for this organization, which had 
responsibility for many of the past WMD programs went from 
approximately $7.8 million in 1998 to $350 million in 2001. During this 
period of growing resource availability, many military programs were 
carried out--including many involving the willing export to Iraq of 
military items prohibited by the Security Council.
    The remaining four chapters deal with the different types of WMD 
programs which Iraq had previously worked. The first of these, the 
Delivery System chapter, describes the work Iraq had been pursuing with 
respect to both missiles and unmanned aerial vehicles (UAVs).
    Iraq continued to work on missile delivery systems in the wake of 
the Gulf war. Saddam drew a distinction between long-range missiles and 
WMD--a distinction not drawn in the U.N. resolutions. Iraq's missile 
development infrastructure continued to develop under sanctions, and 
included work on propulsion, fuels, and even guidance systems. As more 
funding became available following the implementation of the OFF 
program, Saddam directed more missile activities. In the later years, 
more foreign assistance was brought in--including both technology and 
technical expertise. While it is clear that Saddam wanted a long-range 
missile, there was little work done on warheads. It is apparent that he 
drew the line at that point--so long as sanctions remained. However, 
while the development of ballistic missile delivery systems is time 
consuming, if and when Saddam decided to place a non-conventional 
warhead on the missile, this could be done very quickly. The CW and BW 
warheads put on Iraqi missiles in 1990 and 1991, for example, were 
built in months.
    A couple of points are of interest from the Iraq missile efforts. 
One is that they did not bide by the range limits set in U.N. Security 
Council Resolution 687. The range capabilities of the ballistic 
missiles they were developing exceeded the stated limits. Iraq also 
used components from SA-2 engines that they had expressly been 
prohibited. Iraq also produced fuel that was not declared. They also 
tested UAVs in excess of the range limits.
    Iraq missile developers became so confident that others would 
violate the sanctions that they designed new missile systems which 
depended upon the import of guidance systems. Further, they drew upon 
the foreign expertise that was readily available for such areas as 
propulsion.
    The chapter on nuclear programs reviews the program up to the 1991 
war and describes the activities of the scientists and engineers 
following the war. The analysis shows that despite Saddam's expressed 
desire to retain the knowledge of his nuclear team, and his attempts to 
retain some key parts of the program, during the course of the 
following 12 years Iraq's ability to produce a weapon decayed.
    Sanctions and inspections lasted longer that Saddam anticipated. 
The inspections were also more intrusive than expected. Therefore, 
retention of weapons material put at risk his higher immediate 
objective of escaping sanctions. Nevertheless, Saddam's son-in-law and 
chief weapons development manager, Husayn Kamal, directed that design 
information and very limited physical material be hidden from 
inspectors. These concealment efforts were successful until Husayn 
Kamal himself fled to Jordan in 1995.
    There were also efforts to retain the intellectual capital of 
nuclear scientists by forbidding their departure from Iraq and keeping 
them employed in government areas. However, over time there was decay 
in the team. Unlike the other WMD areas, nuclear weapons development 
requires thousands of knowledgeable scientists as well as a large 
physical plant. Even with the intention of keeping these talented 
people employed, a natural decay took place and the time it would take 
for Iraq to build a nuclear weapon tended to increase for the duration 
of the sanctions. The Iraqi Atomic Energy Commission utilized the same 
people in a range of projects during the 1990s and addressed technical 
problems akin to those in nuclear weapons development. These efforts, 
however, cannot be explicitly tied to an intention to revive a weapons 
program.
    Despite this decay, Saddam did not abandon his nuclear ambitions. 
He made clear his view that nuclear weapons were the right of any 
country that could build them. He was very attentive to the growing 
Iranian threat--especially its potential nuclear component, and stated 
that he would do whatever it took to offset the Iranian threat, clearly 
implying matching Tehran's nuclear capabilities. Saddam observed that 
India and Pakistan had slipped across the nuclear weapons boundary 
quite successfully. Those around Saddam seemed quite convinced that 
once sanctions were ended, and all other things being equal, Saddam 
would renew his efforts in this field.
    The chapters dealing with CW and BW tell somewhat different 
stories. In the chemical weapons area, the Iraqis had long experience 
with production and use of mustard and nerve agents. In Baghdad's view, 
these weapons saved Iraq from defeat in the war with Iran and, in 
combination with BW capabilities, helped deter the United States from 
deposing the regime in 1991.
    Following the Iran-Iraq war, Iraqi CW activity shifted from 
production to research and development of more potent and stabilized 
agents. In contrast to the nuclear field, CW work requires not 
thousands of scientists, but hundreds. The top expertise was developed 
among a few dozen scientists and chemical production engineers.
    Once inspections began in 1991, Iraq chose to yield most of its 
weapons and bulk agent as well as the large facilities that were widely 
known to exist. As in the other WMD areas, Saddam sought to sustain the 
requisite knowledge base to restart the program eventually and, to the 
extent it did not threaten the Iraqi efforts to get out from sanctions, 
to sustain the inherent capability to produce such weapons as 
circumstances permitted in the future.
    Over time, and with the infusion of funding and resources following 
acceptance of the Oil-for-Food program, Iraq effectively shortened the 
time that would be required to reestablish CW production capacity. Some 
of this was a natural collateral benefit of developing an indigenous 
chemical production infrastructure. By 2003, Iraq would have been able 
to produce mustard agent in a period of months and nerve agent in less 
than a year or two We have not come across explicit guidance from 
Saddam on this point, yet it was an inherent consequence of his 
decision to develop a domestic chemical production capacity.
    Iraq denied it had offensive biological weapons programs to 
inspectors in 1991, and secretly destroyed existing stocks of weapons 
and agent in 1991-1992. Iraq decided to retain the main BW production 
facility, but under guise of using it to produce single-cell protein 
for animal feed. These decisions were taken with Saddam's explicit 
approval. Saddam clearly understood the nature of biological weapons. 
He personally authorized their dispersal for use in 1991 against 
coalition forces, Saudi Arabia and Israel. He clearly took steps to 
preserve this capability and was successful until 1995.
    Preservation of Iraq's biological weapons capabilities was simpler 
than any other WMD area because of the nature of the material. First, 
the number of experts required is quite small, perhaps a couple dozen. 
Then too, the infrastructure to produce agent can be readily assembled 
from quite simple domestic civilian plants. Moreover, little, if any, 
activity would be necessary to keep this option ``on the shelf''.
    Some activity that might have been related to a biological program 
has been examined closely, including work with a bio-pesticide, 
bacillus thuringiensis. While this work could have been related to 
advancing Iraqi anthrax knowledge, information is inconclusive. This 
work could and certainly did sustain the talent needed to restart a BW 
program; however, we can form no absolute conclusion on whether this 
work represented active efforts to develop further anthrax programs or 
not. Given the developing infrastructure in Iraq in the late 1990s and 
early 2000s, such a reconstitution could be accomplished quite quickly.
    Other aspects of the Iraq BW program remain cloudy. For example, it 
is still difficult to rule on whether Iraq had a mobile BW production 
effort or made any attempts to work with smallpox as a weapon.
    What is clear is that Saddam retained his notions of the use of 
force and had experience that demonstrated the utility of WMD. He was 
making progress in eroding sanctions and, had it not been for the 
events of September 11, 2001, things would have taken a different 
course for the regime. Most senior members of the regime and scientists 
assumed that the programs would begin in earnest when sanctions ended--
and sanctions were eroding.
    A variety of questions about Iraqi WMD capabilities and intentions 
remain unanswered, even after extensive investigation by ISG. For 
example, we cannot yet definitively say whether or not WMD materials 
were transferred out of Iraq before the war. Neither can we 
definitively answer some questions about possible retained stocks. 
Developments in the Iraqi Intelligence Services appear to be have been 
limited in scope, but they were certainly never declared to the United 
Nations. What did they really represent and was there a more extensive 
clandestine activity with another set of technical experts? We cannot 
say for certain.
    Opportunities to develop new information are decreasing. However, I 
must mention that we just came into possession of a large number of 
documents recently accumulated by coalition forces. The number of these 
documents is approximately equal to the total received since the end of 
the war, and it will clearly take many months to examine what has been 
found and provide an initial summary of what they contain.
    Then, too, we continue to receive a continuing stream of reports 
about hidden WMD locations. When such reports are judged sufficiently 
credible, ISG conducts an investigation. In fact, just 2 weeks ago a 
source provided a partially filled nerve agent container from a 122 mm 
rocket. This, like others recovered, was from old pre-1991 stocks. 
Despite these reports and finds, I still do not expect that militarily 
significant WMD stocks are cached in Iraq.
    A risk that has emerged since my previous status report to Congress 
is the connection of former regime CW experts with anti-coalition 
forces. ISG uncovered evidence of such links and undertook a sizeable 
effort to track down and prevent any lash-up between foreign terrorists 
or anti-coalition forces and either existing CW stocks or experts able 
to produce such weapons indigenously. I believe we got ahead of this 
problem through a series of raids throughout the spring and summer. I 
am convinced we successfully contained a problem before it matured into 
a major threat. Nevertheless, it points to the problem that the 
dangerous expertise developed by the previous regime could be 
transferred to other hands. Certainly there are anti-coalition and 
terrorist elements seeking such capabilities.
    It is my hope that this report will offer a generally accurate 
picture of the evolution and disposition of WMD within the former 
regime. I am quite aware that the Iraqis who participated in these 
programs will be reading this report and ultimately will comment upon 
it. I hope they learn from it and do not find too many errors.
    I spent hours with many of the Iraqi participants--both before the 
war as deputy chairman of UNSCOM in the 1990s and after the war when 
many were in custody. Many of these individuals are technocrats caught 
in a rotten system. Some wholeheartedly participated. In either case, 
Saddam channeled some of the best and brightest Iraqi minds, and a 
substantial portion of Iraq's wealth toward his WMD programs. It has, 
of course, been very difficult to discern the truth from these 
participants, given the mix of motivations that inescapably color the 
statements of those who remain in custody. It is sometimes very 
difficult to recognize the truth.
    This applies especially to Saddam himself, who was a special case 
in all of this. We had the opportunity to debrief him, but he naturally 
had limited incentives to be candid or forthcoming at all. 
Nevertheless, many of his statements were interesting and revealing. In 
the end, only he knows many of the vital points. Even those closest to 
him had mixed understandings of his objectives. In fact, there was 
uncertainty among some of his closest advisors about WMD and whether it 
even existed. It is ironic that when he had the weapons, they saved 
him. When he did not have them, he was deposed.

    Chairman Warner. Thank you very much.
    General.

 STATEMENT OF BRIG. GEN. JOSEPH J. McMENAMIN, USMC, COMMANDER, 
                       IRAQ SURVEY GROUP

    General McMenamin. Thank you, Mr. Chairman. Thank you very 
much for the opportunity to discuss the activities of the ISG. 
I have been in this position since June, when I replaced Major 
General Keith Dayton. During these months, the ISG has remained 
focused on searching for Iraq's WMD and associated WMD 
programs, supporting the effort to defeat the insurgency in 
Iraq and pursuing any additional leads concerning the fate of 
U.S. Navy Captain Michael Scott Speicher. In addition, the ISG 
has been supporting the Regime Crimes Liaison Office in its 
efforts to assist the Iraqi Special Tribunal.
    Since Major General Dayton left, three things have changed 
that bear on the mission of the ISG. First, the U.S. 
transferred sovereignty to the Interim Iraqi Government on 28 
June 2004. While we did not anticipate any major changes to our 
operating procedures, we did carefully consider the conduct of 
post-transfer missions and have worked to incorporate coalition 
combat units and the Iraqi Police Service whenever possible and 
practical.
    Second, the United States Central Command transferred 
operational control of the ISG to the Multinational Force-Iraq. 
This shift was undertaken in conjunction with the transfer of 
sovereignty and occurred when all forces in Iraq were placed 
under the command of the Commanding General, Multinational 
Force-Iraq.
    Third, there has been an increase in violence by former 
regime elements, foreign fighters, and common criminals, 
seeking to undermine and discredit the new Iraqi government.
    While Mr. Duelfer discusses the ISG's substantive findings, 
which are treated in detail in his comprehensive report, I 
would like to touch briefly on the other missions. The Speicher 
team exhausted all in-country leads regarding the fate of 
Captain Speicher and departed the ISG in May. No new leads have 
been developed since their departure. All data previously 
collected with regard to the status of Captain Speicher is with 
the Defense Intelligence Agency (DIA), which is in the process 
of writing an updated report. As stated during previous 
testimony on this topic, the ISG will immediately pursue any 
new leads or data generated in Iraq on the status of Captain 
Speicher.
    As for the counterterrorism mission, we are working at the 
direction of the Multinational Force-Iraq to help neutralize 
former regime elements involved in the insurgency, working 
targeting and collection packages on Zarqawi cells, and 
following closely any potential links between the terrorists 
and chemical weapons.
    Our main support to the Regime Crimes Liaison Office is 
through the processing of documents in Qatar and Iraq and 
assisting with interviews of high-value detainees. The Regime 
Crimes Liaison Office funds their own activities. No 
intelligence funds are used for this effort.
    The ISG will continue to support the DCI's post-report 
requirements on WMD and the counter-insurgency fight in Iraq. 
The dedication, professionalism, and enthusiasm of all members 
of the team have ensured that the missions assigned have been 
carried out thoroughly and in a professional manner.
    Mr. Chairman, thank you for inviting me to speak to the 
committee today. I will finish this statement by thanking all 
of you for your support for what we have undertaken in the ISG 
and the continuing support you provide to the Americans, 
Australians, and British, both military and civilian, who risk 
their lives daily in this endeavor.
    Thank you, sir.
    [The prepared statement of General McMenamin follows:]
       Prepared Statement by Brig. Gen. Joseph J. McMenamin, USMC
    Thank you, Mr. Chairman, for the opportunity to meet with the 
committee today. It is a pleasure to speak with all of you today about 
the efforts of the great American, Australian, and British members of 
the Iraq Survey Group (ISG).
    I have been in position since June of this year when I replaced 
Major General Keith Dayton. During these months, the ISG has remained 
focused on searching for Iraq's weapons of mass destruction and 
associated WMD programs, supporting the effort to defeat the insurgency 
in Iraq and pursuing any additional leads concerning the fate of U.S. 
Navy Captain Michael Scott Speicher. In addition, the ISG has been 
supporting the Regime Crimes Liaison Office in its efforts to assist 
the Iraqi Special Tribunal.
    As the Special Advisor to the DCI on Iraq's Weapons of Mass 
Destruction Programs, Mr. Duelfer will discuss the ISG's substantive 
findings, which are treated in detail in his Comprehensive Report. My 
job has been to lead the military and civilian personnel who implement 
his collection and analytical guidance in a bid to uncover the truth 
about Iraqi WMD. I am also personally responsible for a wide range of 
other mission areas outside of Mr. Duelfer's responsibilities, as well 
as the safety and security of ISG personnel throughout Iraq and all 
personnel living at Camp Slayer.
    Since Major General Dayton left three things have changed that bear 
on the mission of the ISG. First, the U.S. transferred sovereignty to 
the Interim Iraqi Government on 28 June 2004. While we did not 
anticipate any major changes to our operating procedures, we did 
carefully consider the conduct of post-transfer missions and have 
worked to incorporate coalition combat units and the Iraqi Police 
Service wherever possible and practical. Second, United States Central 
Command transferred Operational Control of the ISG to Multi-National 
Force Iraq. This shift was undertaken in conjunction with the transfer 
of sovereignty and occurred when all forces in Iraq were placed under 
the command of the Commanding General, MNF-I. Third, there has been 
increasing violence by former regime elements, foreign fighters, and 
common criminals seeking to undermine and discredit the new government.
    The ISG currently consists of approximately 1,750 people, including 
personnel from the United States, the United Kingdom, and Australia, of 
whom approximately 750 work in Iraq. Except for a handful of logistics 
personnel in Kuwait, the remaining 1,000 personnel work in Qatar. We 
employ over 770 linguists from a wide variety of Arabic speaking 
countries at our Qatar and Iraq locations. The United States contingent 
continues to represent a strong multi-disciplinary, interagency team 
with participation from the Defense Intelligence Agency, the National 
Security Agency, the National Geospatial-lntelligence Agency, the 
Central Intelligence Agency, all the armed services (to include active, 
Guard, and Reserve components), and the Departments of Justice, 
Treasury, and Energy. We expect our manning in Qatar to remain 
constant, but anticipate that our numbers in Iraq will decrease as we 
identify post Comprehensive Report requirements.
    The ISG is still based out of Camp Slayer, Iraq, near the Baghdad 
International Airport. We continue to conduct debriefings of the High 
Value Detainees at Camp Cropper. Initially, there was some confusion as 
to our ability to continue debriefings after the assumption of 
sovereignty by Iraqi authorities. We quickly determined, however, that 
we could conduct the debriefings under UNSCR 1546 and the letters 
annexed to the resolution. The only detainees we cannot interview are 
those who have been charged with crimes by the Interim Iraqi 
Government. Our expertise with the HVDs has been invaluable to the 
Regime Crimes Liaison Office and its support of the Iraqi Special 
Tribunal. We maintain a very good relationship with MNF-I's Detainee 
Operations and the Military Police assigned at Camp Cropper. This 
relationship is an example of unity of effort by several commands for a 
single purpose.
    The ISG continues to operate the Combined Media Processing Center-
Main (CMPC-M) at Camp As Saliyah in Qatar. We also operate Combined 
Media Processing Center-Baghdad (CMPC-B) with three satellite 
locations. The numbers of personnel in Qatar have risen and we now have 
hundreds of linguists, analysts, and administrators working to triage, 
gist, and load the documents and other media into national databases. 
We completed scanning the bulk of the initial captured material during 
June, but we have recently acquired a large amount of additional 
material from various locations that needs to be triaged and scanned. 
Our document exploitation effort also supports the work of the Iraqi 
Special Tribunal through the Regime Crimes Liaison Office (RCLO) and 
the U.S. Department of Justice has established a cell located within 
our Qatar operation to support the prosecution of regime officials. The 
Department of Justice provides funding for all RCLO and DOJ support, no 
intelligence funds are used to support these law enforcement 
activities. To date 91 percent of the material translated or gisted has 
related to the search for WMD, principally in the areas of procurement 
and delivery systems. We have loaded close to 150,000 files into the 
Harmony database, each of which consists of the original scanned 
document, the meta-file describing the document, and a gist or full 
translation.
    Our location at Camp Slayer is the hub for conducting ISG 
operations, analyzing the information gathered and providing command 
and control for the ISG. While our structure continues to evolve, we 
continue to maintain the organization of functional teams that conduct 
analysis and identify requirements for the collectors. Once a 
requirement is identified, an Operational Planning Team is formed from 
internal and, as required, external units. A task organized team with 
supporting units is built around analysts and subject matter experts, 
interrogators/debriefers, linguists, document exploiters, a chemical 
exploitation team and a Mobile Collection Team Commander. NOA provides 
mapping support and NSA provides target coverage. These task organized 
teams are led by and composed of coalition members and U.S. 
intelligence organizations.
    While Mr. Duelfer will address the ISO's substantive findings, let 
me provide some information on the scope of work that went into 
supporting the writing of the report as of 24 September. In recent 
months the ISO has:

        <bullet> Executed 2,700 Missions
        <bullet> Visited 1,200 different WMD Sites (Some more than 
        once)
        <bullet> Published 4,000 Intelligence Information Reports
        <bullet> Conducted 4,100 Debriefings
        <bullet> Scanned and Processed over 40 Million Pages of 
        Documents
        <bullet> Processed 28,000 Digital Media Sources
        <bullet> Processed over 4 million Analog Media Sources

    ISG was given commander's guidance from MNF-I in two areas related 
to counterterrorism. The first was to assist in the defeat of Former 
Regime Elements. The second part of the commander's guidance was to 
assist in preventing a strategic surprise from Anti-Iraqi Forces using 
WMD. Through 21 September, ISO has published 680 intelligence reports 
supporting the counterterrorism/counterinsurgency mission. To reduce 
the chance of former regime scientists from linking with Anti-Iraqi 
Forces we developed contacts with the Iraq Ministry of Science and 
Technology and continue to work with the American Embassy on the 
scientist redirection program.
    The Speicher team exhausted all in-country leads regarding the fate 
of Captain Speicher and departed the ISO in May. No new leads have been 
developed since their departure. All data previously collected with 
regard to the status of Captain Speicher is with DIA which is in the 
process of writing an update report. As stated during previous 
testimony on this topic, the ISG will immediately pursue any new leads 
or data generated in Iraq on the status of Captain Speicher.
    In the area of security, we continue to make improvements in force 
protection measures to protect our people, whether they are on the road 
or in garrison. Although Camp Slayer has been attacked by both mortars 
and rockets, thankfully there have not been any casualties. I can't say 
enough about the support of the fine soldiers of the Pennsylvania and 
Kansas Army National Guardsmen and Reserve Component on whom I rely on 
heavily for force protection, escort missions and supporting camp 
operations.
    There continue to be many challenges facing the Iraq Survey Group. 
We are currently developing a collection plan to gather information on 
the intelligence gaps identified in the Comprehensive Report. We will 
need to reevaluate the work load and processing time it will take to 
triage, scan, and gist the additional documents recently turned over to 
the ISG. We will need to balance our work load to ensure that MNF-I is 
supported during the crucial periods between now and the Iraqi 
elections. Both the Iraqi government and MNF-I are focused on 
protection of key leaders and infrastructure, census taking, elections, 
rebuilding, and a rising level of violence that the Iraqi government 
needs to counter by establishing and training effective security 
forces.
    Mr. Chairman, thank you for inviting me to speak to the Committee 
today. The dedication and enthusiasm of all members of the team have 
ensured that the search for the truth about Iraq's weapons of mass 
destruction has been carried out thoroughly and in a professional 
manner. I will finish this statement by thanking all of you for your 
support for what we have undertaken in the Iraq Survey Group and the 
continuing support you provide to the Americans, Australians, and 
British, both military and civilian, who risk their lives daily in this 
endeavor.

    Chairman Warner. Thank you very much, General.
    We will proceed with a 6-minute round of questions.
    Mr. Duelfer, you spent a good deal of your professional 
career examining Iraq and you were at one time a weapons 
inspector. Would you sketch that brief career or give us a 
brief description?
    Mr. Duelfer. I was chosen by Ambassador Ekeus to be his 
deputy at the U.N. Special Commission on Iraq in 1993, and so I 
was the deputy chairman of that U.N. organization for several 
years. In fact, I was the acting chairman of it at the end, 
when the UNSCOM ended and a new organization called the U.N. 
Monitoring, Verification, and Inspection Commission, which was 
headed by Dr. Hans Blix, began. That caused me to have a great 
deal of contact with the Iraqis, spend a lot of time in Iraq, 
and talk with the people involved in these programs.
    Then the DCI asked me, in January, if I would take the 
position as his Special Advisor on Iraq WMD, to succeed David 
Kay.
    Chairman Warner. We are fortunate you did.
    My question will be very simple. It is asked frequently and 
it is discussed frequently. Is it your professional judgment 
that the world is better off with Saddam Hussein now in 
custody, facing the rule of law?
    Mr. Duelfer. In my opinion there was a risk of Saddam 
Hussein being in charge of a country with that amount of 
resources and with that amount of potential for both good and 
evil. What Iraq was, under Saddam, and the potential of what it 
could be, there was an enormous difference.
    The trends I think are important. Our analysis in this 
study was to not look at a single point in time, but to look at 
dynamics and trends. He clearly had ambitions with respect to 
WMD. He clearly had a strategy and tactic to get out of the 
constraints of the U.N. sanctions. He was clearly making a 
great deal of progress on that.
    But for the intervention of the events of September 11, I 
think the world would be in a very different position right 
now.
    Chairman Warner. In conclusion, the world is better off 
with Saddam Hussein now in custody, facing the rule of law to 
account for his crimes?
    Mr. Duelfer. I am an analyst and I realize I am in a 
political world right now, but I have to agree analytically, 
the world is better off.
    Chairman Warner. I thank you for that straightforward 
response, and it is predicated on many years of dedicated 
service.
    Mr. Duelfer. Thank you.
    Chairman Warner. Do you think that situation could have 
been achieved without the intervention of the coalition forces 
and the active use of military force in what appeared to be a 
complete and utter breakdown of diplomacy to achieve the goals 
that we have thus achieved, making the world better off?
    Mr. Duelfer. The way that question is sometimes framed, 
sir----
    Chairman Warner. Why don't you reframe it in a manner with 
which you are more comfortable. I will get to it if I feel 
necessary and revise it. You go ahead.
    Mr. Duelfer. It is clear that Saddam chose not to have 
weapons at a point in time before the war.
    Chairman Warner. Now, let us explain which war. You are 
talking about the second one?
    Mr. Duelfer. The most recent one.
    Chairman Warner. That is correct.
    Mr. Duelfer. When we look at the frame of reference that 
Saddam saw around him, he saw U.N. sanctions, he saw forces 
around him, he saw diplomatic isolation after September 11. He 
saw his revenue streams dropping. He chose, at that point in 
time, to allow U.N. inspectors in.
    As an analyst, I looked at that and I asked were those 
conditions sustainable? I find it hard to conclude that those 
conditions were stable or sustainable. So while Saddam chose 
not to have weapons at that point in time, the conditions which 
caused him to make that decision were, A, not sustainable; and 
B, extremely expensive, not just for the international 
community, but for the Iraqis themselves.
    Over the last decade, observing what happened to the 
civilian infrastructure of Iraq under the sanctions is stark. I 
mean, here is a country with enormous talent. The people are 
educated, westward-leaning for the most part. They had a great 
education system. Watching that decay under sanctions was not a 
pleasant experience. There was an enormous price for that.
    Those are some of the factors. Others will look at the data 
and draw other conclusions, but my opinion is that the 
conditions were not sustainable over any lengthy period of 
time.
    Chairman Warner. Had he lost his life by whatever means and 
the assets that he then had under his control had fallen into 
the hands of one or several of his children, particularly his 
sons, they clearly presented an equally, if not greater, danger 
to the world; am I not correct?
    Mr. Duelfer. From the discussions of the top people around 
Saddam--his ministers, military leaders--they were not fond of 
Saddam's offspring, and these people had a high tolerance for 
tough behavior. So I would have to agree with you that a 
succession from Saddam to one of his offspring, while it is 
hypothetical and it is hard to imagine exactly how that would 
play out, was not a pleasant prospect.
    Chairman Warner. Did you assess how many of the 17 U.N. 
resolutions, that your facts clearly indicated, Saddam was 
violating?
    Mr. Duelfer. It was not our task explicitly to match up 
what we found on the ground against what the U.N. was 
requiring, although, because of my background, I certainly had 
an interest in it. It was quite clear that many of the things 
that we found were in clear violation of the U.N. requirements. 
He had missiles which exceeded the range. There was a lot of 
equipment which should have been declared. There were 
laboratories which should have been declared. In each of the 
weapons areas there were materials or things which were, to 
some extent, in violation of the U.N. sanctions.
    Chairman Warner. Let us go back to the U.N. Security 
Council resolution and what you now know about the likelihood 
of the absence of large stockpiles of prohibited WMD. Can you 
explain why Saddam Hussein did not avail himself of the final 
opportunity to demonstrate full and immediate compliance with 
U.N. Security Council Resolution 1441, thereby having avoided 
the use of force?
    Mr. Duelfer. Senator, it is a question which many of us 
have puzzled over. In fact, many very senior Iraqis have 
puzzled over the same question. It really requires you to get 
into Saddam's mind, and the answer is it is difficult to know 
for certain. Certainly some of his senior advisors, foreign 
affairs advisors, argued that, shortly after September 11, they 
should have just very fully complied without hesitation, 
without trying to negotiate.
    But what they say is that Saddam always wanted to 
negotiate. If he was going to accept inspectors coming in, he 
wanted to get something for it. He wanted to get sanctions 
lifted. He kept trying to bargain and barter, and he had not 
realized the nature of the ground shift in the international 
community. That was Saddam's intelligence failure. He did not 
understand very quickly the radical change of the international 
landscape.
    One can understand that to a certain extent because in the 
period leading up to September 11 there was a great deal of 
sympathy for his regime. Baghdad was filled with businessmen. 
The international fair that Baghdad runs was often filled with 
lots of companies. They were making lots of transactions, in 
full violation of the sanctions. The ministers around Saddam, 
and Saddam himself, expressed the opinion that sanctions were 
about to end through erosion, through their own collapse.
    So the radical change in a sense that occurred in the 
international community following September 11, took a while to 
penetrate in his judgment.
    Chairman Warner. Given that 1441 was clear, it seems to me 
you could draw the conclusion that, his failure to avail 
himself, to avoid that destruction, and to enable him to remain 
in power shows a very irrational mind. Certainly, an irrational 
mind that was a danger to the world.
    Mr. Duelfer. Saddam is certainly dangerous. He certainly 
demonstrated the ability to make monumental mistakes. I 
remember a conversation I had with Tariq Aziz when I asked him: 
why did you invade Kuwait before you had a nuclear weapon? He 
more or less shrugged and pointed to the picture on the wall. 
The picture on the wall, in virtually any room you were in in 
Iraq, in those days was Saddam.
    So he is very shrewd. He has an exquisite sense of what 
motivates people, often at the basest level. But he is 
enormously susceptible to making hugely dangerous decisions.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    On page 64 of your report you say that, ``The Iraq Survey 
Group has not found evidence that Saddam Hussein possessed 
weapons of mass destruction stocks prior to the war.'' Is that 
correct?
    Mr. Duelfer. That is correct.
    Senator Levin. Now, in addition to that, what you are 
telling us today is that, in addition to having no WMD stocks 
before the war, for the reasons you gave Saddam chose not to 
have those weapons. Is that correct?
    Mr. Duelfer. That is correct.
    Senator Levin. Those are stunning statements. Not only did 
he not have WMD, but, for the reasons you gave, he chose not to 
have WMD. That is 180 degrees different from what the 
administration was saying prior to the war. They were saying 
that he had stockpiles of WMD and indeed had an active effort 
to acquire more and was a threat for that reason.
    I just want to focus, not just on your speculation about 
intentions, which I think anyone can speculate on and it is 
fair enough to speculate on them, but in terms of the facts 
that you found, which are what you were assigned to find, to 
find the facts one way or another. Those particular facts it 
seems to me are pretty stunning.
    You also found, on page 7 as I read your report, that 
``Iraq did not possess a nuclear device, nor had it tried to 
reconstitute a capability to produce nuclear weapons after 
1991.'' Did I read that correctly from your report?
    Mr. Duelfer. Sir, I am sure you read it correctly. But if I 
might respond a bit to your premise, you used the word 
``speculation'' and again as an analyst I would say it is not 
really speculation. What we were trying to do is derive 
information from the people we had the opportunity to talk to 
first-hand, including Saddam. So I just have to come back a 
little bit on that, with all due respect.
    Senator Levin. That is all right.
    But now I want to get to your nuclear program statement. 
You say that you found, as a matter of fact, that Iraq had not 
tried to reconstitute a capability to produce nuclear weapons 
after 1991. Therefore, it seems to me, you are saying that Iraq 
had no active nuclear weapons reconstitution program before the 
war. Is that correct?
    Mr. Duelfer. What we said was that there was an attempt to 
sustain the intellectual capability and to sustain some 
elements of the program, particularly before 1995. But active 
nuclear weapons program, no, we found no evidence, nor do we 
judge that there was one.
    Senator Levin. All right. Now, relative to the aluminum 
tubes, your report says on page 21 that, ``Baghdad's interest 
in high-strength, high-specification aluminum tubes is best 
explained by its efforts to produce 81-millimeter rockets.'' Is 
that correct?
    Mr. Duelfer. That is correct. That is my judgment, that 
those tubes were most likely destined for a rocket program.
    Senator Levin. Although you uncovered inconsistencies that 
raised questions about whether high-specification aluminum 
tubes were really needed for such a rocket program, in your 
words, ``These discrepancies are not sufficient to show a 
nuclear end use was planned for the tubes.'' Is that your 
judgment?
    Mr. Duelfer. That is my judgment, recognizing that in Iraq 
the types of logic that we apply here do not always apply 
there.
    Senator Levin. That is your best judgment?
    Mr. Duelfer. Correct.
    Senator Levin. Now, you also found, on page 7 in the 
nuclear section, that ``The Iraq Survey Group has uncovered no 
information to support allegations of Iraqi pursuit of uranium 
from abroad in the post-Operation Desert Storm.'' In another 
page you said that ``The Survey Group has not found evidence to 
show that Iraq sought uranium from abroad after 1991.'' Is that 
your judgment?
    Mr. Duelfer. That is also what we found.
    Senator Levin. Now, relative to the mobile biological 
weapons production program, this is what you have stated in 
your report, ``In spite of exhaustive investigation, the Survey 
Group found no evidence that Iraq possessed or was developing 
BW agent production systems mounted on road vehicles or railway 
wagons.'' Is that your conclusion?
    Mr. Duelfer. I am going to go a little longer on my 
response to that because it is a more complicated question or 
issue and the biology area is one where there is less certainty 
possible. Part of that is due to the nature of the programs. If 
you were to do sensitivity analysis about that, little facts 
can make a big difference in that area.
    On the mobile production systems question, there were two 
trailers which were found in, I believe, May 2003. One found in 
Irbil and one in Mosul. Those are clearly, in my judgment, for 
the production of hydrogen. They have absolutely nothing to do 
with any biological weapons.
    A second question arose from reports, largely from one 
individual, about a production facility which was mobile. These 
were quite detailed reports, and to the extent we have been 
able to investigate that, we believe two things: One, that much 
of what this person said is incorrect. Some of what he did say 
was correct, but the majority of the evidence which he was 
pointing to as a mobile production facility was wrong.
    However, this is one of those issues where I am not quite 
comfortable in pronouncing that there was no mobile system in 
Iraq. We believe we have done as much investigation as we can. 
We have found no evidence. But I feel a little bit hesitant 
about declaring flatly that there was no mobile production 
facility. It is one of those cases where there may be some 
uncertainty.
    Senator Levin. Just in conclusion, though, the two trailers 
that were captured in 2003 that were stated to be part of a 
biological warfare program for the delivery of biological 
warfare, manufacture of biological warfare, those particular 
trailers you have found were, in fact, not part of a biological 
warfare program, is that correct?
    Mr. Duelfer. Correct.
    Senator Levin. Because those are the two trailers that the 
Vice President pointed to as definitively being the evidence of 
the biological warfare program and the evidence of WMD. Those 
were the very trailers that the Vice President said, ``This is 
the definitive evidence that Saddam Hussein had a weapons of 
mass destruction program.'' Now you are coming here today 
relative to those two trailers and telling us that, in spite of 
exhaustive investigation, you found no evidence that Iraq 
possessed or was developing biological warfare agent production 
systems mounted on road vehicles or railway wagons, and that 
those particular trailers were designed and built exclusively 
for the generation of hydrogen, which is a totally different 
purpose. Is that correct? Those trailers, just focus on those 
trailers.
    Mr. Duelfer. The two trailers that were captured in Irbil 
and Mosul are for the production of hydrogen. In my judgment, 
my firm judgment, and the judgment of most of the people who 
have looked at them, all of our experts, they have nothing to 
do with biological weapons.
    Senator Levin. Thank you for that testimony. It just 
totally undercuts the statements which were made by the Vice 
President. Thank you.
    Chairman Warner. Were you able to give a full response to 
that question? I want to make sure that the record has all of 
your thinking on it.
    Mr. Duelfer. The question of those two trailers is, to me, 
separate and distinct from the question of whether Iraq had a 
mobile biological weapons program. Our efforts to fathom that 
possibility departed from a source who subsequently turned out 
to be largely a fabricator. That does not mean there was not an 
Iraqi mobile biological production capability. But we have not 
found evidence of that.
    Again, the biology area is an area where, because it takes 
very few people, it takes very little in the way of resources, 
it is one of the areas where I think there is some risk that we 
might find new information that might change the content of 
this report.
    Chairman Warner. Very little area to conceal it, am I not 
correct?
    Mr. Duelfer. It takes very little area to conceal.
    Chairman Warner. I thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Duelfer, and thank you, 
General, for your great work.
    I have a follow-up. So therefore, knowing the history of 
Saddam Hussein, his use of WMD, he had them in 1991, is there 
any doubt in your mind that if Saddam Hussein were in power 
today and there were no restrictions or sanctions placed on him 
that he would be attempting to acquire WMD, Mr. Duelfer?
    Mr. Duelfer. To me, I think that is quite clear. But more 
importantly, it was quite clear to many of the senior advisors 
around Saddam. He had an exquisite sense of the use of power 
and influence. To him it was a continuous spectrum--oil, 
military force----
    Senator McCain. So there is no doubt in your mind, he is in 
power today, the sanctions are gone, he would be pursuing them, 
because that was his history?
    Mr. Duelfer. He had two life experiences where they saved 
him, which is I think why some of the prewar assessments were 
colored. I mean, people would kind of look at it and say, why 
would he not have these things.
    Senator McCain. Okay, let me lead you through a couple of 
questions here because we have only 6 minutes. There is the 
belief purveyed by some that there was a status quo in Iraq 
where basically the sanctions were in effect and things were 
fairly normal, and so therefore we really had a choice between 
the status quo and an attack on Saddam Hussein.
    Is it not more likely, as you have stated in previous 
testimony, the sanctions were being eroded and American 
airplanes were being shot at. As you just mentioned, 
businessmen all over Baghdad were thinking that it was a matter 
of time before the sanctions were lifted; we have a burgeoning 
scandal in the Oil-for-Food program, and there was not a status 
quo? In other words, there was a steady deterioration of any 
restraints, real or imagined, that Saddam Hussein may have 
felt? Is that an accurate assessment of the situation in 
Baghdad?
    Mr. Duelfer. That is a very accurate assessment. We spent a 
fair amount of time analyzing exactly that and trying to 
understand the strategy and tactics which Iraq was using to 
encourage the decay of sanctions.
    Senator McCain. So we did not have a choice between 
maintaining the status quo and attacking Saddam Hussein. We had 
a situation which was rapidly deteriorating and eventually over 
time, in the view of most experts, Saddam Hussein would have 
been either relieved of or would have evaded these sanctions as 
more and more business was done and less and less actions on 
the part of the U.N. in enforcing those sanctions?
    Mr. Duelfer. Sir, I think we detail, at great length, 
exactly those sorts of conditions, but we allow for others to 
draw their own conclusions. But my personal view is that the 
sanctions were in free fall. They were eroding and there was a 
lot of corruption. Were it not for September 11, I do not know 
that they would exist today.
    Senator McCain. There is also the belief in some circles 
that this was an idea that was hatched either in the Department 
of Defense or somewhere in the White House right after 
September 11: Let us go attack Saddam Hussein, and we will 
invent this WMD issue sort of as a pretext for it, and that 
there was really a hidden agenda there.
    Why, in your viewpoint, did every single intelligence 
agency on Earth that I know of, the British, our friends the 
French, the Germans, the Israelis, every single intelligence 
agency believed, as our intelligence agency did, that Saddam 
Hussein had WMD? How do you account for that?
    Mr. Duelfer. Well, sir, that was not really my mandate. 
However, I do have an opinion.
    Senator McCain. I would appreciate your opinion.
    Mr. Duelfer. I think there are a lot of factors involved in 
that. One, as I mentioned before, Saddam had an experience 
where these weapons were vital to him, so why would he not have 
them? Sort of logically, why would he not?
    Second, the United States had almost no contact with Iraq 
over more than a decade. To me, I sometimes forget that because 
I spent a lot of time there myself, but that was because I was 
with the U.N. That means that the analysts who were forced to 
make judgments about this were actually in a very poor 
position. They did not have any ground truth. They spent a lot 
of time looking at computer screens, but not a lot of time 
talking to Iraqis, not a lot of time walking around Iraqi 
plants and getting a feel for it.
    For example, if someone associates a particular vehicle 
with a chemical weapons program, as was done--there is 
something called a Samarra Decon vehicle. If you spend much 
time in Iraq you would realize the Iraqis could be selling ice 
cream out of those vehicles. To associate a particular vehicle 
with a particular program, it is that kind of a feel for the 
ground that was rare in the United States.
    Also, Saddam, as we learned from talking with him, was 
deliberately ambiguous. He gave a speech, I remember it quite 
well, in June 2000 where he said in essence: ``You cannot 
expect Iraq to give up a rifle and live only with the sword if 
its neighbors do not give up rifles and live with swords.'' He 
wrote his speeches himself largely, by the way. Now, that is 
kind of typical Saddamese, but it makes you think, well, he is 
saying he is going to hang onto his WMD.
    So we asked him what he meant by that. He said he had two 
audiences in mind. This is a rare time when I think he actually 
was candid. He said he had two audiences. One was the Iranian 
threat, which for him was quite potent, palpable. The Iranian 
threat was very palpable to him, and he did not want to be 
second to Iran and he felt he had to deter them. So he wanted 
to create the impression that he had more than he did.
    Senator McCain. So every intelligence agency was fooled by 
him?
    Mr. Duelfer. Including to a certain extent the Iraqi 
intelligence agency, because there were many Iraqis who were 
not convinced that there either were or were not special 
weapons within their arsenal.
    Senator McCain. My time has expired, Mr. Chairman. I am 
serving on the Weapons of Mass Destruction Commission. We need 
to find out why we are all so wrong. But I think it is 
important for everybody to keep in mind that it was every 
intelligence agency on earth that came to the same conclusion, 
and that is an important factor as we move forward with this 
continuing ongoing national debate about whether we should have 
attacked Iraq or not and whether there was sufficient 
justification for doing so, and if so why.
    I thank Mr. Duelfer. I appreciate your coming here at a 
very sensitive political time. I appreciate your candor, and I 
also understand that it is very inappropriate for you to get 
into any of the domestic policies, politics, of this country. I 
thank you. I thank you, too, General.
    Chairman Warner. Thank you.
    For the record, did you believe Saddam had WMD just prior 
to the use of force?
    Mr. Duelfer. My judgment was, I was at a think tank at the 
time, that I expected there to be a small number of ballistic 
missiles that would serve a function as a strategic reserve. I 
believed that he would have retained the capability to produce 
chemical or biological agents, but not have stocks.
    I felt that at the time he was keeping his nuclear 
expertise in four or five key facilities so that they would be 
better positioned to restart that program. Like others, this 
was an imperfect assessment. But that was basically from my 
experience at the U.N. Special Commission, from the unanswered 
questions.
    But I must say that when they took the decision, in 
February 2000, to begin discussions with the U.N. about 
readmitting inspectors, to me that was a very key indicator 
that there probably weren't large stocks there to be found.
    Chairman Warner. Thank you.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    I join my colleagues in expressing great appreciation for 
your service to our country. Let me just continue this thought, 
Mr. Duelfer. What would you say, on a scale of 0 to 100, is the 
likelihood that we will ever find the stockpiles of WMD that 
the President spoke about prior to the war?
    Mr. Duelfer. I think the prospects of finding, and I sound 
like I am trying to create jargon here, a significant stockpile 
is, I do not know, less than 5 percent.
    Senator Kennedy. It is less than 5 percent. You have more 
than 1,000 people on your staff now. Press reports indicate 
that we have spent more than $900 million on the search for 
WMD, and your testimony says that you just obtained large 
numbers of documents that are approximately equal to the total 
previously received since the end of the war, and that will 
clearly take many months to examine.
    But is this not a total waste of money? Why does the search 
keep going on and on and on? Are we not at the point where we 
have to admit the stockpiles do not exist and this has 
obviously become a wild goose chase? The Bush administration 
had hoped we would find something, anything to justify the war. 
But instead, you basically nailed the door shut on any 
justification for the war.
    At the present time, David Kay told Congress that there are 
approximately 130 known Iraqi ammunition storage points in 
Iraq, some of which exceed 50 square miles in size, hold an 
estimated 600,000 tons of artillery shells, rockets, aviation 
bombs, and other ammunition. The real question is whether these 
sites are adequately protected today or are they available to 
the insurgents.
    So, General McMenamin, can you assure us that all these 
sites are tightly secured by U.S. forces and no weapons could 
fall into the hands of the insurgents?
    General McMenamin. Sir, I cannot assure you that will 
happen. On the larger ones, we have security forces and 
overhead imagery. There is an active program, ongoing to 
destroy excess munitions around the country. On a regular 
basis, we are destroying excess captured munitions to keep them 
out of the hands of the insurgency.
    As the Iraqi forces come on line in their security efforts, 
they will be able to take over and protect those assets to 
prevent them from falling into the wrong hands.
    Senator Kennedy. My question is wouldn't the resources that 
you are spending to find WMD, that evidently do not exist, be 
better spent on weapons that do exist and that are threatening 
American servicemen every single day?
    Mr. Duelfer. Sir, if I might just respond a bit on that. My 
task was not to find WMD. My task was to find the truth. I am 
quite proud of the work that we have done to delineate the 
program and to describe in detail, which anyone else can 
examine, what we did find.
    I am not suggesting that we should continue searching this. 
I think the staffing and the requirements to continue resolving 
these small remaining uncertainties is small. So you say wild 
goose chase. We have had a couple people die and we have had 
many people wounded. To tell them they have been involved in a 
wild goose chase to me is--it is not really what we were doing. 
We were meant to find what existed with respect to WMD. We were 
not tasked to find weapons. We were tasked to find the truth of 
the program, and that is what we tried to relate in this, and I 
think it was a worthwhile endeavor.
    Senator Kennedy. We all understand that anyone who is 
wounded or dies in Iraq is a hero. They are there to serve, and 
the political decisions are made to send them over there. For 
all of us who have expressed concerns about this war, have the 
highest regard and respect for them.
    But the fact is we have had many distortions, 
misrepresentations about the facts. The American people are 
entitled to facts. John Adams says ``Facts are stubborn 
things.'' We have seen distortions and misrepresentations about 
what is absolutely there. It is fair enough to wonder whether 
the $900 million that we are spending, that you say is a very 
remote likelihood of finding WMD, should not be spent in other 
areas to guard what David Kay said was necessary to guard if we 
wanted to try to have an impact in terms of the Americans.
    With all respect, Mr. Duelfer, we did not go to war because 
of Saddam's intent or future capability to produce the WMD. We 
were told that Saddam already had stockpiles of chemical and 
biological weapons and that he could acquire a nuclear weapon 
within a year, which he could then give to terrorists. That is 
what we were told.
    I understand from your testimony, that you mentioned out 
here in response to Senator Levin, Iraq did not possess a 
nuclear device, nor did it try to reconstitute a capability to 
produce nuclear weapons after 1991. Your report talks about 
Saddam's intent and future capability. That is not what the 
American people were told. President Bush said on September 27, 
``Saddam must be prevented from having the capacity to hurt us 
with a nuclear weapon or to use the stockpiles of anthrax that 
we know he has''--``that we know he has''--``VX, the biological 
weapons which he possesses.''
    Ten days later President Bush unequivocally stated: ``Iraq 
possesses and produced chemical and biological weapons.'' He 
continued on October 7, ``The evidence indicates that Iraq is 
reconstituting its nuclear weapons. If the Iraq regime is able 
to produce, buy, or steal, it could have a nuclear weapon.''
    Secretary Rumsfeld said: ``With regards to weapons, we know 
where they are. They are in the area around Tikrit, Baghdad, 
east-west.'' That is what the Secretary of Defense is telling 
the American people.
    You have not been able to find them.
    Mr. Duelfer. Sir, I have spent more time with the Iraqi 
Secretary of Defense than the American Secretary of Defense. 
Ask me about Iraqis.
    Senator Kennedy. I want to thank you very much.
    Mr. Duelfer. Thank you.
    Chairman Warner. Thank you very much.
    Have you had adequate time to respond to Senator Kennedy's 
questions?
    Mr. Duelfer. I think so, yes.
    Chairman Warner. Fine. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    It seems as if we are talking about the two assumptions 
that took this administration into this war, I am very thankful 
that we are in this war, having to do with people disavowing 
that there is a connection between al Qaeda and Saddam Hussein. 
I just think it is important to have in the record, Mr. 
Chairman, some facts here. One was one of the reports that was 
disclosed about a year ago, in terms of the connection, that a 
highly classified 16-page defense document, memorandum has not 
been refuted to this time.
    It says that: ``The unavoidable conclusion, Saddam 
Hussein's regime had been guilty as charged, tied for more than 
a decade to Osama bin Laden and his al Qaeda network for the 
purpose of waging attacks on their mutual foe, the United 
States of America. Top Iraqi intelligence officials and other 
trusted representatives of Saddam Hussein met repeatedly with 
bin Laden and his subordinates. U.S. intelligence received 
reports that Iraq provided safe havens, money, weapons, and 
fraudulent Iraqi and Syrian passports to al Qaeda, and also 
provided training in the manufacture and the use of 
sophisticated explosives.'' We know about that. Mohamed Haikmot 
Shakir facilitated the movement of two of the September 11, 
2001, hijackers, Khalid Midhar and Nawak al-Hamsi, through the 
passport control center and there were four meetings between 
Mohamed Atta and intelligence officials of Iraq.
    All of these things were drawing that connection, and I 
think we have adequately covered the fact that WMD were 
certainly expected to be there by every intelligence force, 
including ours. Senator Kennedy mentioned Dr. Kay and I can 
recall sitting next to Senator McCain when he was at this very 
table asking some of these questions:
    Saddam Hussein developed and used WMD? True. You are 
talking about in the past? Yes, he used them against the 
Iranians and the Kurds. If he were in power today, is there no 
doubt that he would harbor ambitions to develop and use WMD? 
Absolutely, no question about that. Then the questioning goes 
on as to how much better off we are today.
    I was going to run over the German intelligence reports, 
the French, the Russians, the Israeli reports, but also our own 
reports. When President Clinton was in office he said: ``I have 
ordered a strong, sustained series of air strikes against Iraq. 
They are designated to degrade Saddam's capacity to develop and 
deliver weapons of mass destruction.'' There was no doubt in 
anyone's mind that this was going on.
    Now, I think probably the best question that has been asked 
here, and it has been answered by you and it has been asked to 
a number of witnesses so I will not ask it again, is are we 
better off today? I think people are so quick to forget the 
reports that we had about Saddam's bloody regime, about the 
lining up the 8,000 people in the mass graves. Many people at 
this table have actually looked down into these mass graves. 
The lining up of 315 children and executing the 315 children; 
the policy of cutting tongues out if anyone is suspected of 
saying anything about the regime.
    Mr. Chairman, you might remember this although you were not 
on the trip, in 1991 we had the first freedom flight. Alexander 
Haig and myself, and several others, went to Kuwait with Saud 
al-Sabaq. He was the ambassador to the United States from 
Kuwait. They did not even know the war was over there. This was 
right after it was officially over.
    I can recall the 7-year-old daughter of the ambassador. We 
went to their palace, they were of the royal family, only to 
find that Saddam Hussein had taken over that palace and used it 
as a headquarters. I went up with this little girl to her 
bedroom and there were body parts. They had used it as a 
torture chamber. I saw a little boy there with his ear cut off 
because he was caught with an American flag.
    Now, I think anyone who is trying to use these two 
arguments for political purposes is going to have to answer 
that question and have to answer it in the positive, that we 
are better off, or deny that we are better off than we would 
have been if Saddam were still in power. So I think that is the 
thing that we have to look at.
    I know I have used almost all my time, but let me just ask 
you a couple of questions, Mr. Duelfer. Thank you very much for 
your service, both of you. Would you describe Iraq's strategy 
and tactics to divide the Security Council and defeat 
sanctions? Would it have made sense, in your view, to stake our 
national security on the success of the U.N. sanctions regime?
    Mr. Duelfer. I think it is pretty clear that the Iraqi 
strategy and tactics to dividing the Security Council were 
having a fair amount of success. I think that is clear in the 
report when you see the amount of conventional military 
equipment that was being sold to Iraq, being transported into 
Iraq, in fact with the help of some Security Council members.
    There is, in my mind, little doubt that the trend, again 
prior to September 11, the constraints that the U.N. was able 
to put around Iraq were collapsing.
    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, Mr. Duelfer and General. I did have the 
opportunity to visit you and I appreciate the arduous 
circumstances and the extraordinary commitment that you and 
your colleagues have made to do your mission.
    Mr. Duelfer, let me follow up on a question that the 
chairman asked about your perception of the threat prior to the 
invasion. I think you indicated that you thought there might be 
some stockpiles, but I do not want to put words in your mouth. 
The question I have: At that point did you think that 
constituted an imminent threat to the United States and our 
interests?
    Mr. Duelfer. Bear in mind, I was not a member of the 
Intelligence Community at that time. I was just me with my own 
background.
    Senator Reed. Given what we have learned, you might have 
been in a better position.
    Mr. Duelfer. It was my judgment that Iraq retained perhaps 
a strategic reserve, in other words a deterrent, not an 
offensive capability.
    Senator Reed. Let me ask you another question which I think 
is very interesting. You have had the opportunity to meet with 
Saddam. Why did he accept U.N. inspectors into his country with 
virtually unrestricted access? I think, as I recall, they 
actually discovered some of these missiles that were out of 
compliance and destroyed them?
    Mr. Duelfer. First let me correct a point in your premise. 
The way we debriefed Saddam was by one interlocutor who spent 
his entire time. My interaction with him was always one step 
removed.
    Senator Reed. Thank you.
    Mr. Duelfer. But the question why did he accept the 
inspectors, I think to the best we understand from what he has 
said, which is not always the truth, but from those around him, 
was that he recognized the growing pressure. It was clear that 
the military force buildup was taking place. His advisors 
finally convinced him that, look, there has been a ground shift 
of the support in the Security Council away from Iraq.
    He was feeling isolation. Some of the revenues were tailing 
off. He was, I think, getting advice also from some of his 
friends on the Security Council who said: Look, the world has 
changed; you have some problems here.
    Senator Reed. That seems to be a pretty rational response 
for somebody who we have kind of labeled as a lunatic or 
delusional. That is just an aside.
    The inspectors on the ground, and you have great experience 
as a former inspector, were probably the best source of 
intelligence and information. They could have significantly 
increased our awareness of the true facts, difficult to get at, 
I grant you. But yet they were prematurely removed, very 
abruptly removed. In your judgment was that a wise decision?
    Mr. Duelfer. First of all, I have enormous respect for the 
inspectors. There is no substitute for having people on the 
ground. That provides a lot of information. It provides a 
deterrent.
    But I would come back to the question of were those 
conditions sustainable? Hans Blix and his people were on the 
ground in an extraordinary set of circumstances. The United 
States had deployed a lot of forces. There was a crisis in the 
Security Council. So when I ask myself the question, were 
inspections working, are you asking a question which is at one 
point in time or is it over a continuum?
    I find it hard to convince myself that the circumstances 
which allowed the inspectors to be successful to the extent 
that they were. I do not think those conditions were 
sustainable.
    Senator Reed. I think you raise the issue of the length of 
sustainability. Certainly I would assume that you can see they 
could have been sustained for several more months at least. 
This coalition was a huge step, backing him down, forcing him 
to admit that the situation had changed, that the U.N. was 
going to crack down on him. Perhaps it would not have lasted 
for 2 or 5 years indefinitely, but for 2 or 3 months to 6 
months, to 7 months, at which time we could have learned a 
great deal more about the very questions we are debating now: 
Were those biological labs producing hydrogen or something 
else? Was it a real nuclear program or was it sort of dormant?
    Mr. Duelfer. I am not sure I can answer that question, sir.
    Senator Reed. Mr. Duelfer, I respect you and I think that 
is probably a good answer. But certainly those questions should 
have been asked by our leadership.
    Mr. Duelfer. That is the heart of a good discussion and 
good debate, and I hope this report informs that discussion.
    Senator Reed. Let me ask you another question as my time 
allows. From what you said, this might be repeating your 
response to Senator Levin, Saddam consciously and deliberately 
ordered the destruction of virtually all of his WMD, chemical 
and biological and termination at some point of the nuclear 
program, which begs the question: If he was so intent on 
reconstituting a program, if this was his unshakable idea, why 
did he not simply hide small portions of this material?
    Mr. Duelfer. He wanted to get out of sanctions. That was 
his priority. On a noninterference basis with that objective, 
he wanted to sustain, as we understand it from talking with him 
and his advisors, the intellectual capabilities and some bits 
and pieces of his programs that are hard to duplicate.
    This is particularly the case in the early years of the 
U.N. constraints, from 1991 to 1995, and particularly the 
period of time during which his son-in-law, who was in charge 
of developing and had some pride of creation of these programs, 
was still around. But after he left in 1995, I think Saddam 
concluded that this business with the sanctions was going on 
longer than he expected. He did not anticipate the duration of 
these. He had to take other decisions, to include getting rid 
of some of the production capabilities and other things.
    Senator Reed. It seems that the sanctions were working.
    Mr. Duelfer. Again, if you look at it at a point in time 
and I hate to say this but, it depends what you mean by 
``working.'' The sanctions certainly were modifying Saddam's 
behavior. They were also having an enormous effect on the 
people in Iraq. Once Saddam elected to begin the Oil-for-Food 
program because of the devastation on the Iraqi population and 
because of the threats that caused to his own regime, it 
provided all kinds of levers for him to manipulate his way out 
of the sanctions.
    So, again I come back to trying to avoid a static analysis 
and try looking at a more dynamic analysis, what are the 
trends, where is this headed. I apologize if I sound like I am 
disappearing into jargon here, but to me I think that is a 
distinction with a difference.
    Senator Reed. Thank you. General, thank you.
    My time has expired.
    Chairman Warner. Thank you very much, Senator.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I wonder, this is for both of you to comment on, if you 
would describe the extent of the evidence that Saddam's regime 
destroyed materials, documents, and equipment, and whether your 
findings were accurately reflected in Saddam's 2002 report to 
the U.N. Security Council?
    Mr. Duelfer. Sir, our task was not to compare what we found 
with the U.N. document, what was provided to the U.N. Likewise, 
it was not to compare what we found with prewar intelligence 
assessments. We had enough trouble just trying to determine 
what it was that was on the ground.
    However, in the process of doing that, it was quite clear 
that we were finding things which were certainly at variance 
with the U.N. resolutions. But we did not line up what we found 
with what Iraq was declaring.
    Senator Allard. But you did see enough evidence there that 
raised suspicions about the accuracy of the 2002 report to the 
U.N. Security Council?
    Mr. Duelfer. There certainly were errors in that report.
    Senator Allard. Errors did exist?
    Mr. Duelfer. Errors did exist, yes.
    Senator Allard. Similarly, did you uncover more evidence 
that the regime engaged in additional destruction of WMD 
evidence after hostilities began in 2003?
    Mr. Duelfer. I think David Kay and I both have commented on 
that. There was a lot of destruction at sites, the intentional 
destruction of documentation, materials. It is difficult to 
determine exactly what was removed and destroyed, but there 
clearly was a concerted effort in certain areas to destroy 
materials that would be helpful in our investigation now.
    Senator Allard. Would you care to speculate on the 
motivation for the destruction of those?
    Mr. Duelfer. Iraq had, throughout its existence, a denial 
and deception activity, for a multiplicity of reasons, one of 
which was to conceal whatever they had with respect to WMD from 
the U.N. inspectors, but also to protect the regime leadership 
in many ways. So it could have been related to many different 
things.
    There were also records unrelated to WMD, but perhaps 
related to atrocities, that they wanted to cover up.
    Senator Allard. So you do think, in your mind, that there 
were some WMD programs that they were trying to destroy 
evidence of?
    Mr. Duelfer. I have not said that, sir. I have said there 
were active steps taken to destroy things and materials which 
could be helpful to our investigation. I do not know what it 
was that they were destroying evidence of, so I cannot make 
that next step.
    Senator Allard. I see.
    Mr. Duelfer, your predecessor and certainly other recent 
commissions and government reviews have all concluded that we 
had poor human intelligence in Iraq to uncover or corroborate 
WMD facts and assertions. In your opinion, how did we get into 
that poor state?
    Mr. Duelfer. It is not my responsibility. Nevertheless, I 
do have opinions. Again, because we did not have relations with 
Iraq we did not have access for a long period of time. That is 
one factor.
    Senator Allard. It was a closed society.
    Mr. Duelfer. It was a very closed society.
    Senator Allard. It was very difficult to get people in 
there in the field to verify.
    Mr. Duelfer. That is true. While the UNSCOM was operating 
in Iraq, I take some pride in this, we had a great deal of 
information about Iraq that we made public. Our reports to the 
Security Council, which occurred four times a year, were quite 
detailed. I think perhaps people assumed that was a pretty good 
source of information. But again these are just my opinions and 
I am not the best-positioned person to comment on that 
question.
    Senator Allard. On its face, Iraq is a closed society. They 
agree to have inspectors come into their country and then all 
of a sudden they kick them out. That raises suspicions about 
what is going on in the country as far as WMD, does it not?
    Mr. Duelfer. Certainly in December 1998 when Operation 
Desert Fox took place and there was 4 days of bombing. The U.N. 
Special Commission left Iraq. There was an enormous division in 
the Security Council at that time because there was a 
difference of opinion about whether that bombing should have 
taken place. The Iraqis, certainly Iraqis I spoke with, were 
actually quite satisfied and pleased. One individual I spoke 
with, I remember, said: Well, gee, if we knew that that was all 
you were going to do, meaning the 4 days of bombing, we would 
have ended this earlier.
    But from December 1998 until December 1999, the Security 
Council was in complete disagreement over what to do with Iraq. 
There was not a consensus. It took them a full year to arrive 
at a new resolution. During that period of time, Iraq was 
obviously free to do what it wanted. It was clear that there 
was not a consensus on how to deal with Iraq and they would 
draw their own conclusions from that.
    Senator Allard. I understand from your remarks the degree 
of uncertainty regarding involvement of the neighboring 
countries in Iraq's potential transportation of WMD or 
facilities. For example, we saw reports that Iraqi intelligence 
services would replace border security guards while cargo 
caravans crossed various border stations.
    Do you want to elaborate on those assertions and facts?
    Mr. Duelfer. Our investigations looked a lot at what took 
place at some of the border points and surrounding the border 
crossing points. This is described in some detail in our 
report. Certainly there was a lot of activity related to the 
transfer of prohibited conventional munitions. The Muhabarat, 
the Iraqi Intelligence Service, was involved in that. They had 
people at these border points. There was a lot of traffic back 
and forth. There were reports about WMD-related materials 
crossing the border.
    But I still feel that we have not yet run down all the 
leads that we can on that. I am not sure we will ever be able 
to definitively answer that question, but I still think there 
are some avenues of explanation which we can pursue.
    Senator Allard. Are some of those papers in the volumes of 
information you just acquired? Do you believe that they could 
be there?
    Mr. Duelfer. The documents, the customs documents, are not 
replicated in the books, but the discussion about some of the 
lines of inquiry we have had are included in that, including 
the role of the Muhabarat, the Iraqi Intelligence Service.
    Senator Allard. I see my time has expired, Mr. Chairman.
    Senator Inhofe [presiding]. Thank you, Senator Allard.
    Senator Nelson from Florida.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Duelfer, thank you for your public service. I visited 
with your team over there about a year and a half ago. That is 
a difficult place for you to operate in and I appreciate your 
public service.
    If you would, explain just a little more for the committee 
the following quote from page 5 of your report: ``The analysis 
shows that, despite Saddam's expressed desire to retain the 
knowledge of his nuclear team and his attempts to retain some 
key parts of the program, during the course of the following 12 
years''--that is after the 1991 war--``the following 12 years, 
Iraq's ability to produce a weapon decayed.''
    Can you describe that to us? How did that ability decay?
    Mr. Duelfer. The nature of a nuclear weapons program is 
such that you need large teams of very well-educated, highly-
trained individuals. It is a complicated process. Despite 
Saddam's desire to retain that intellectual capital, over time 
those teams just decay. You just cannot sustain that.
    The people working on the trigger mechanism, the people 
working on enrichment, the people working on materials 
sciences, and the people working on rotors for production of 
enriched material--there was a wide range of talent and 
expertise which just simply melted away, and that is what 
happened.
    Senator Bill Nelson. General, Scott Speicher is from my 
State. He is from Jacksonville. You have made the statement 
that the team that was there, which was doing a magnificent 
job, departed this year in May.
    General McMenamin. Yes, sir. Sir, they exhausted all in-
country leads. They ran to ground everything they could find 
in-country, returned to the United States to work on their 
report with the Intelligence Community prisoner of war-missing 
in action (POW-MIA) cell. That report is with the Director of 
DIA right now for his review, prior to going to the Department 
of the Navy and SECNAV for his final assessment of the fate of 
Captain Speicher.
    Senator Bill Nelson. That is 5 months that they have been 
here. Why is there not a report forthcoming?
    General McMenamin. Sir, the last update I had, it was with 
the Director of the DIA. Other than that, I have no idea why it 
has not gone any further.
    Senator Bill Nelson. What advice would you give to the 
committee for us to give any kind of comfort to the family that 
everything has been done and that the team has left Iraq?
    General McMenamin. Sir, basically with the team leaving 
Iraq, when they did their efforts to find the fate of Captain 
Speicher, that did not stop our efforts to pursue other leads. 
Any leads that we get in-country, we have individuals assigned 
that will actually work those leads, whether it is working with 
a unit in one of the different organizations, whether it is a 
source from a human intelligence, or whether it is a walk-in to 
any of our platforms.
    We will continue to pursue any leads that come up in-
country or any leads that we get from the United States that 
may prove credible enough that we can give the families some 
hope and comfort.
    Senator Bill Nelson. I know about some of those leads and 
we have not been able to follow up on them.
    General McMenamin. No, sir. It is extremely difficult to go 
to parts and about parts of the country right now to follow up 
on some of those.
    Senator Bill Nelson. Because of the difficulty of us having 
access as well as the explosiveness of the local population, 
the threats, the intimidation, the retribution, all of that?
    General McMenamin. Yes, sir, those are all parts. In 
addition, some of the sources are bedouins who move around 
quite frequently. They are extremely difficult to find. Some of 
them still do not trust any type of centralized government, 
just like they didn't before. But the leads that we get, we do 
pursue. We sort through, just as on the WMD side, we sort 
through scams and realities, to try to pursue the credible ones 
to ensure that we can do what we are supposed to do.
    Senator Bill Nelson. In the 1990s we found his aircraft. 
The Iraqi government at that time, supposedly brought forth 
Scott Speicher's flight suit. We found a lot of the parts of 
the aircraft. Yet we found no other things, no identification 
badges. We did not find his pistol. We did not find any of 
this.
    General McMenamin. Yes, sir.
    Senator Bill Nelson. It is out there somewhere.
    General McMenamin. Yes, sir. It involves tracking down 
people somewhere in the country. Some are afraid to come 
forward. They are there. It is just going to involve getting to 
them and finding them and finding out what the answers are.
    Senator Bill Nelson. What do you think I ought to tell the 
family so that they have some assurance that this is going to 
happen, given the fact that it took raising Cain by three 
Senators in order to get this thing moving after about 8 years?
    General McMenamin. Sir, the only thing I would be able to 
tell the families is that we will not give up looking for him. 
If that gives them false hope, it should not. As time goes on 
and the situation stabilizes, it will give us better access to 
people. Maybe people will be more forthcoming if their fears of 
retribution by either the insurgency or the former regime 
elements--but I would say that we will pursue the effort to the 
best of our ability to find a good answer for the family.
    Senator Bill Nelson. For your personal service, thank you 
very much. My ``ought'' that I have is with others who I think 
have dropped the ball. It is certainly not with you, it is not 
with your predecessor. It is not with all of those very 
courageous people who were part of that team that was sifting 
through every piece of debris that they could find in those 
prisons to get any shred of evidence.
    It is with the lethargy and inertia in these gargantuan 
organizations that suddenly let the fate of an American flyer, 
who was walked away from suddenly, be lost in the bureaucracy. 
That I cannot stand. I can tell you, I speak for Senator 
Roberts as well.
    Thank you, Mr. Chairman.
    Senator Sessions [presiding]. Thank you.
    Senator Lindsey Graham.
    Senator Graham. Thank you.
    Mr. Duelfer, I have tried to put this whole issue in 
context and see if we can reach some type of sensible 
conclusions about what we are to draw from all this. Let us go 
back. The starting point to me is the use of WMD by Saddam 
Hussein. What kind of weapons are we talking about that he 
used?
    Mr. Duelfer. In the Iran-Iraq War, in the late 1980s, he 
used chemical weapons, both aerial bombs and artillery rounds. 
He used approximately 101,000 chemical munitions. They were 
mustard rounds, largely in the case of 155-millimeter artillery 
shells. There were 122-millimeter rockets with sarin. There 
were also aerial bombs.
    In the case of the domestic use in Halabja and other cities 
as well in northern Iraq, it was really the same mix, but they 
tended to be dropped from helicopters.
    The third use was in 1991, and this is where the ISG 
developed more new information. That is when the Shia were 
rising up; again, they loaded helicopters with chemical 
munitions and used it against the Shia.
    Senator Graham. Were these weapons produced in-house or did 
he buy this material from someone or do we know?
    Mr. Duelfer. Certainly the weapons were manufactured in 
Iraq. Some components of those weapons and precursors of the 
agents that were acquired abroad.
    Senator Graham. But the actual making of the chemical bombs 
was done in Iraq, is that correct?
    Mr. Duelfer. That is correct.
    Senator Graham. So at one time he did have a chemical 
capability within the country?
    Mr. Duelfer. Absolutely. He had an enormous facility called 
the Muthanna State Establishment. There is a long discussion of 
that particular facility in one of the annexes of the report. 
It is a huge facility. I think it is like 5 kilometers by 10 
kilometers, with dozens of buildings. It is quite a huge place.
    Senator Graham. Is 1981 the year that the Israelis bombed a 
nuclear power plant?
    Mr. Duelfer. That is correct. In June of that year they 
bombed the Osirak reactor.
    Senator Graham. Do you believe that was a wise decision on 
their part?
    Mr. Duelfer. After that activity, the Iraqis really went 
full bore on a nuclear weapons program. I do not think I have a 
judgment on that, frankly.
    Senator Graham. The only reason I mention it is, was there 
ever a time that Saddam Hussein was engaged in trying to 
acquire a nuclear weapon?
    Mr. Duelfer. Oh, he certainly was. He had a very elaborate 
program. His top weapons designers freely admit that. They 
discuss that. The head of the program, Jaffar Jaffar, will tell 
you that. After being imprisoned, and only let out of prison if 
he agreed to begin a program to run a nuclear weapons program, 
he did that. That continued on until 1991.
    Senator Graham. So what we know thus far from history is 
that he had chemical weapons in-house, he used them on people 
to survive, and that he was actively procuring nuclear weapons. 
Now, was there ever any evidence that he transferred any 
material to a third country?
    Mr. Duelfer. We have not come across evidence that he 
transferred WMD materials to a third country.
    Senator Graham. Group or country, to anyone?
    Mr. Duelfer. We have some reports that we are trying to run 
down, as I mentioned earlier, of material moving out of Iraq 
just prior to the war. But if your question means was he 
sharing the wisdom and knowledge that he acquired about WMD, we 
have not seen that. But neither has that been a particular 
emphasis of our investigation.
    Senator Graham. But you are still searching out the issue 
of whether or not he may have moved some weapons material 
before the war?
    Mr. Duelfer. That is correct.
    Senator Graham. How large a container would you need to 
hold enough weapons anthrax to kill 100,000 people?
    Mr. Duelfer. If you have dried anthrax and it is properly 
distributed, it does not take much in terms of dried agent. But 
you have to be able to deploy it. There are many scenarios that 
you can spin out. If you put it in an aircraft, like an 
agricultural type of aircraft, the amount of agent itself is 
very small. It is something that could readily fit in a small 
room. The device that you, or whatever mechanism you choose to 
disperse this with, is another issue itself.
    But your point I think is that it is a very small amount of 
space in the biology area, and that is true. It is difficult to 
find these things.
    Senator Graham. Is it also fair to say that on paper there 
were many weapons unaccounted for, biological and chemical 
agents unaccounted for, given what we know he had before 1991 
and the latest inspection efforts?
    Mr. Duelfer. Your term ``unaccounted for'' is well-chosen 
because there is much confusion on this point. The U.N. Special 
Commission in particular but also the Monitoring, Verification, 
and Inspection Commission reported that it was unable to verify 
the disposition of certain weapons. That is different than 
saying that they exist. So we were unable to account for them.
    Senator Graham. Let us try it one other way. The Iraqi 
government was unable to account for it.
    Mr. Duelfer. Correct.
    Senator Graham. So in conclusion, we have a very long 
history of use of weapons, procuring of weapons and, on paper, 
unaccounted-for weapons. I think what we need to learn from 
this is that we were wrong, and as a country we need to find 
out why we were wrong about some of our assessments. But as a 
world I think we need to come to grips with the idea that 
people like Saddam Hussein had too much opportunity to do too 
many bad things too long, and we should learn from that, too.
    Thank you.
    Senator Sessions. Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    I express my appreciation for your service, as well as for 
your being here today.
    It is my understanding that the report that is being 
released, Mr. Duelfer, will list companies that traded with 
Iraq after U.N. sanctions were imposed against trade. But the 
version to be made public will not include the names of U.S. 
companies due to a prohibition in the Privacy Act; although the 
full version to be received by U.S. Government officials, 
including Members of Congress, will include those American 
companies' names.
    But the report will name French, Russian, Polish, and other 
companies and officials that traded with Iraq. Some of the 
trade may not have been illegal, though much of it, I think in 
the words of the report, ``was clearly illegal.''
    Is this accurate?
    Mr. Duelfer. Sir, it was my view to put forward all the 
data, names of people, companies, countries that were involved 
in this, because I felt it was important for people to 
understand that. Believe me, I had to argue on this.
    However, with respect to the American names, lawyers have 
told me that the Privacy Act prohibits publicly putting out 
American companies' names. But they are included in the report, 
which is an official document provided to American officials.
    Senator Ben Nelson. I assume that you took their legal 
advice, but you may not have shared that opinion; is that fair?
    Mr. Duelfer. I am not a lawyer, so if someone tells me I am 
going to go to jail for something I tend to listen carefully. I 
mean, that is not what they told me, but they said: Look, this 
is the law; this is as far as we can go.
    Senator Ben Nelson. But isn't it interesting that we print 
the names of petty criminals in the police blotter sections in 
weekly newspapers across the country, but somehow the names of 
these companies do not get in? Apparently the Privacy Act does 
not relate to foreign companies? Was that ever discussed with 
you or do you have any thoughts about that?
    Mr. Duelfer. It evidently does not. I would point out also 
that these data to which you are referring on oil vouchers and 
so forth, that data is going to become public anyway. It is 
part of many investigations which are ongoing. The U.N. has an 
ongoing investigation. It is documents which we received from 
the Iraqi government. So I think, as a practical matter, the 
full disclosure of all this is going to happen. But we cannot 
be a part of that.
    Senator Ben Nelson. Now let us go to the unaccounted for 
WMDs. You mentioned that your view going in was that you 
thought there probably was a strategic reserve for defensive 
purposes, not for offensive purposes. As you looked did you 
also believe that there would be some capability of delivering 
those WMD in a defensive posture?
    Mr. Duelfer. Again, this is just my own opinion.
    Senator Ben Nelson. I understand, it is your own view.
    Mr. Duelfer. Beforehand I had thought that there would be 
some small number of ballistic missiles, on the order of a 
dozen or 15, with the capacity to be loaded with either 
chemical or biological agents, and this would be something as a 
deterrent, in a sense.
    Senator Ben Nelson. Did you have any indication that would 
have led you to believe that these existing stockpiles, small 
or otherwise, that were not found might have been secreted to 
Syria or some other place?
    Mr. Duelfer. I had no wisdom on that when I formulated my 
own opinions about what might remain. I was really drawing my 
judgment on the residual uncertainties from my work at the 
UNSCOM, from discussions with defectors when I was there, my 
sense from discussions with Iraqis during the years I was at 
UNSCOM, and the overall incentive structure that Saddam had. 
Those were the factors that led to my judgment on that.
    Senator Ben Nelson. But you had no belief, going in, that 
you would find large stockpiles or large delivery capabilities, 
as an assumption, as an expectation?
    Mr. Duelfer. My thought was that Saddam, the Iraqi regime, 
would have preserved the opportunity or the capability to 
produce chemical agent and biological agent if a decision were 
made to do that. But this is just me as an individual. That was 
my judgment, that he would have retained the capacity to 
produce in a strategic buildup period, to put it in our kind of 
jargon.
    Senator Ben Nelson. In your previous statement you said 
that you saw the destruction, but you could not tell at what 
point the destruction of any stockpiles might have occurred. 
You also said, I think, that there was a deterioration just 
inherent in not keeping a nuclear program going because of the 
loss of staff and the loss of capabilities there.
    Do you think there was also a loss of potential capability 
in the ability to make WMD other than nuclear weapons if you 
were not in the process of making them?
    Mr. Duelfer. Less so in the other areas, because of the 
nature of the systems. Let me go back to an earlier part of 
your introduction to that last question. You said we were not 
able to understand when these weapons were destroyed. We 
investigated that pretty extensively through interviews and so 
forth, and really what we found was most of the destruction was 
done in 1991, at various points throughout 1991.
    Senator Ben Nelson. So it was not just in advance of the 
invasion?
    Mr. Duelfer. No, not just in advance. I was talking about 
some destruction of evidence and materials that might have 
aided our investigation. I just want to make sure that there 
was not a confusion on that point.
    To your second point or question really, the decay in the 
ability to produce chemical or biological weapons is different, 
again because of the nature of the system. For biology, a small 
number of people that is required. The physical plant required 
is very small. So it would be easy for Saddam to conclude or 
assume that he has that capability and it is on the shelf. I 
said this in my testimony. Because he was able to do it in the 
past, because the people are still there, because he can 
produce indigenously, even if he has to start from scratch, 
fermenters, spray dryers, tanks, and dispersal systems, that is 
something which in his mind he would say: I can do that if I 
want to and it will not take me long to do it.
    Chemical is somewhat more difficult. It takes dozens of 
people in terms of the engineers, production engineers, and the 
chemists. It would be a bit more difficult depending upon the 
type of weapons system that you wanted to use. If it is simple 
dumb bombs, that is one thing. If it is missile warheads, that 
is kind of another thing.
    Interestingly, though, where he did choose to very openly 
violate the resolution was in the ballistic missile area, and 
that is an area where he tried to draw a distinction between 
WMD and long-range ballistic missiles. But he also, I think, 
understood this is a long-lead item. Building, indigenously 
certainly, the types of missiles that he was building, the 
Samoud II, took a lot of time. It was when he was in possession 
of a substantial amount of wealth, largely derived from the 
Oil-for-Food program, that he actually committed to those 
production programs, particularly around 1999 and 2000.
    Senator Ben Nelson. Thank you, and thank you, Mr. Chairman.
    Senator Sessions. Thank you, Senator Nelson.
    I, just in general, would share the thought that, looking 
back over my comments at the time that we voted to go forward 
and authorize military action in Iraq, I mentioned WMD very 
little, but talked mostly about the consistent violation of 
Saddam Hussein of the 16 U.N. resolutions. In a sense, he 
violated his agreement for peace. He sued for peace when our 
military was moving forward in Iraq and he sued for peace and 
agreed to do a number of things, which he did not do.
    As ``The Economist'' magazine in London said, in I thought 
a very important editorial, the box was leaking. European 
nations, Russia, France, Germany particularly, were trading 
with him. The embargo was leaking. We were flying flights over 
Iraq on a daily basis and being shot at by his people and 
dropping bombs on him. We were at a point, as ``The Economist'' 
said, to either put up or shut up, to walk away or not.
    I am absolutely convinced had we walked away from Iraq he 
would have broken the embargo, utilized the vast oil reserves 
he had to reconstitute a military that would have been a threat 
to the world and reconstitute his chemical weapons system.
    That is just my view. That is what I said at the time. That 
is what I believe today. I know the CIA Director apparently, 
according to Mr. Woodward, told the President it was a slam-
dunk that there were going to be WMD there. I do recall 
Chairman Warner, at least four or maybe six times, asking 
leading witnesses: If we undertake this war, are we going to 
find WMD when it is over? Every one said yes, and one of those 
was General Abizaid, I do recall.
    So I just would say that people who talk about lying and 
misrepresentation really need to be talking about were there 
reporting errors and errors in analysis, which is why we are 
passing, probably this very day, a bill to reform and 
strengthen our Intelligence Community.
    Mr. Duelfer, you were asked by Senator Graham--I thought 
you were a bit reluctant to answer the plain question: How much 
space does it take to have anthrax that could kill thousands of 
people? Just how much would it be if it is properly handled?
    Mr. Duelfer. It is a matter of square feet in terms of the 
agent. It is something that it is a very small amount of agent.
    Senator Sessions. Could you put enough in one fruit jar to 
kill hundreds of people, if you know? Just yes or no, if you 
know.
    Mr. Duelfer. Again, the short answer, if you make the right 
kind of material and you disperse it correctly and the 
atmospheric conditions are right. I have listened to too many 
biological weapons experts to be able to just give you a 
straight yes or no answer. But it is a very small area, yes.
    Senator Sessions. Yes, certainly it is, and it is hard to 
find that if you have to look over a nation of 20 million 
people; it might be there.
    What about this report? I see that, I believe it is in 
July, we moved out more than 1.7 tons of enriched uranium and 
other radioactive materials from Iraq. What was that about?
    Mr. Duelfer. This is material that had been part of the 
Iraqi nuclear power plant production and had been under 
safeguards. It is not related to weapons programs.
    Senator Sessions. Is it convertible to a dirty bomb or 
something of that nature?
    Mr. Duelfer. This is the concern, yes.
    Senator Sessions. So far as you know, now are there any 
other remaining nuclear materials in Iraq?
    Mr. Duelfer. None which have not been accounted for by the 
International Atomic Energy Agency. I think we are pretty solid 
on that. When you say nuclear, Iraq for one reason or another, 
has these cesium lightning arresters all over the place. I have 
no idea why they do, but there are little pieces of cesium all 
over. So we have been trying to collect up as many of those as 
possible. But they are not considered to be a major threat.
    Senator Sessions. With regard to the discussion about 
whether or not the aluminum tubes were part of a nuclear 
reconstruction effort by Saddam Hussein, I would just recall 
that we heard both views of that in our intelligence briefings 
that we got and the Democratic nominees got if they attended. 
Some said it was and some said it was not. I thought it was 
connected to nuclear myself, based on the briefings. But it was 
certainly clear to those of us who listened to the briefings 
that some could interpret that differently.
    Did you form any opinion concerning former weapons 
inspector David Kay's comments that ``We know from some of the 
interrogations of former Iraqi officials that a lot of material 
went to Syria before the war, including some components of 
Saddam's WMD program''?
    Mr. Duelfer. I would agree with all that up until the last 
point, because I do not believe we know that WMD-related 
material left Iraq to go to Syria. There was a lot of material, 
a lot of things, including a lot of money, which left Iraq and 
went to Syria.
    Senator Sessions. You deny it or you just personally are 
not sure that was included in the things that went out of the 
country?
    Mr. Duelfer. We are unable so far to make a conclusion on 
that. We have seen reports, but what I can tell you that I 
believe we know is a lot of materials left Iraq and went to 
Syria. There was certainly a lot of traffic across the border 
points. We have a lot of data to support that, including people 
discussing it. But whether in fact in any of these trucks there 
was WMD-related materials, I cannot say.
    Senator Sessions. I think probably what happened to us was 
that we knew, and I guess you have confirmed in your own mind, 
that he used weapons, that he used chemical weapons against his 
own people and against the Iranians in the Iran War; is that 
correct?
    Mr. Duelfer. That is correct, yes.
    Senator Sessions. You do not deny that he was developing a 
nuclear weapon program when he was hit by the Israelis a number 
of years ago?
    Mr. Duelfer. No, he clearly had a nuclear weapons program. 
He clearly had ambitions in all of these areas.
    Senator Sessions. Do you believe he still harbored those 
desires to achieve in those areas?
    Mr. Duelfer. There is no doubt in my mind.
    Senator Sessions. I guess, frankly, that the fact he had 
had them previously, he had been given opportunities to 
demonstrate how he got rid of them and he refused, I think that 
may have allowed, caused some of our experts to reach 
conclusions that we have not been able to establish at this 
point to be accurate.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your candor and your persistence 
here today.
    The discrepancy between what we were told just prior to the 
war beginning, in terms of Iraq's WMD stockpiles and the 
absence thereof, is really to me staggering, and I want to just 
put into the record the statement that Secretary of State Colin 
Powell made before the U.N. on February 5, 2003. He stated: 
``Our conservative estimate is that Iraq today has a stockpile 
of between 100 and 500 tons of chemical weapons agent. That is 
enough to fill 16,000 battlefield rockets.''
    He also cited 18 trucks, mobile biological agent factories.
    Your report indicates that there were none of these 
supplies, as did Dr. Kay, on the battlefield, stashed away, or 
anywhere physically to be found in Iraq.
    On the nuclear weapons question, Vice President Cheney 
stated on August 29, 2002: ``On the nuclear question, many of 
us are convinced that Saddam will acquire such weapons fairly 
soon.'' Just before the war began, he said on Meet the Press on 
March 16, 2003: ``And we believe he has in fact reconstituted 
nuclear weapons.''
    Your report, your testimony today, says: ``The analysis 
shows that, despite Saddam's expressed desire to retain the 
knowledge of his nuclear team and his attempts to retain some 
key parts of the program, in the course of the following 12 
years after the Gulf War, Iraq's ability to produce a weapon 
decayed.'' So he had less capability than he did in 1991 to 
produce a nuclear weapon.
    At the time when we were convinced to support the 
resolution in October 2002 that the President requested and at 
the time the President made the decision to commit American 
forces to the war in Iraq, we were told that Iraq possessed 
these magnitudes of WMD that constituted immediate and urgent 
threats to the United States. Based on what you have learned 
subsequent, would you say that assertion was correct?
    Mr. Duelfer. Sir, I do not want to be evasive, but again it 
was not our job to validate prewar intelligence.
    Senator Dayton. Based on what I just said here, which is 
the information we were given?
    Mr. Duelfer. What we have found on the ground is at 
substantial variation from what you have described the prewar 
assessments were. I think that is quite clear.
    Senator Dayton. I accept that. Thank you.
    Based on your overall knowledge of other nations, and maybe 
you do not have the expertise, either of you, to answer this, 
how many other countries would you say at that time or at the 
present time had WMD programs and weapons themselves greater in 
number or development than Iraq? How many nations of the world?
    Mr. Duelfer. Sir, I do not know. Ask me about Iraq and I 
can drone on forever.
    Senator Dayton. All right, fair enough.
    You mentioned in the closing of your testimony, Mr. 
Duelfer, something that was quite chilling. This summer, you 
detected attempted or prospective links between foreign, you 
say here, ``foreign terrorists or anti-coalition forces who 
were attempting to either obtain chemical weapons stocks or the 
experts in Iraq who were able to produce those weapons,'' and 
that you thought you had been able to get ahead of this 
problem, you said, through the raids this summer.
    Do you still see that linkage or possible linkage as a 
threat?
    Mr. Duelfer. I do. I was a little bit reluctant to put much 
more into the public report on that because it is an ongoing 
force protection kind of an issue. The Army raided a facility 
called the Al-Aboud Laboratory in an area of Baghdad which is 
known as the ``chemical souk,'' and by chance they found a 
person there who was working on some ricin.
    So we quickly got involved in that. We quickly began to 
debrief him and ferret out his contacts and work a link 
analysis, et cetera. We pursued a series of raids pursuant to 
that, and we put together a picture of a series of efforts and 
a number of individuals who were trying to put chemical agent 
of various sorts into munitions, including mortar rounds. We 
think we have most of that particular activity, not under 
control, but we understand it.
    These individuals were anti-coalition people. They were not 
people who we identified with foreign terrorists. But it has 
certainly been the case that characters like Zarqawi have 
expressed an interest in exactly this type of weapon. But I 
think the resources of the ISG, the analysts and the ability to 
react quickly allowed us to get ahead of this problem, and I am 
quite proud of that.
    Senator Dayton. I am glad you did, yes. Thank you for doing 
so.
    It strikes me that one of the pretexts for this war was to 
prevent Saddam Hussein from dispersing his WMD to other forces, 
and a terrible irony of the effort would be if in fact that had 
not been occurring and did in fact occur as a result of our 
intervention there. I appreciate your intervention to prevent 
that.
    May I ask, regarding the long-range ballistic missiles that 
you cited, what are we talking about here in terms of the long 
range?
    Mr. Duelfer. The Al-Samoud, which was a weapon that he had 
and he fired several in the war, had a range which exceeded 150 
kilometers. I think it flight tested out to 180 kilometers. But 
in addition, he had under development range extension programs 
that, by adjusting the fuel, in the near term he could have 
reached 250 kilometers. Saddam had asked the development of 
much longer range missiles, including up to 600 kilometers. All 
of this was within the capabilities of the Iraqi scientists and 
engineers, aided and abetted by external assistance.
    Senator Dayton. My time is up. May I just ask you to 
respond briefly. How much longer do you think this 
investigation needs to continue?
    Mr. Duelfer. I am going to go back to Baghdad as soon as 
possible, because it is safer there. I would anticipate some of 
the residual issues can be pretty well addressed in the next 
month or two. This is not dragging on. I know some of the 
questions seem to say, why are we wasting all this money and 
time on this.
    Senator Dayton. Just asking.
    Mr. Duelfer. In terms of subsequent reporting, what I would 
see is a potential of perhaps addendums on little defined 
issues. For example, was material shipped out of Iraq prior to 
the war; a judgment on that.
    Senator Dayton. Thank you again, both of you, for your 
service.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Dayton, thank you.
    Senator Clinton, the vote has just started on final 
passage, about 2 minutes or so. So if you would like to go now, 
fine. I think Senator Warner will return after the vote.
    Senator Clinton. I would prefer to go now if I could.
    Senator Sessions. Good. You are recognized.
    Senator Clinton. Thank you very much.
    Mr. Duelfer and General, thank you both for your service, 
and please express our appreciation to your predecessors and 
all who served on the ISG. We have a deep understanding, based 
on the work that you have done, of issues that are quite 
difficult, and I thank you for that.
    Mr. Duelfer, when was your report finished?
    Mr. Duelfer. When it was in the printer, which was probably 
2 or 3 days ago. It is dated the 30th. I think the last volume 
of it actually trickled off the printer a couple days after 
that.
    Senator Clinton. Who have you or anyone on your behalf 
briefed with respect to this report?
    Mr. Duelfer. Briefed?
    Senator Clinton. Or discussed, presented the report?
    Mr. Duelfer. For my part, I have talked to people as this 
has progressed, including up here; earlier this morning, the 
Senate Select Committee on Intelligence. I have had meetings 
with various people saying, where are things coming out, where 
are they going along. But in terms of the final report, it has 
not been briefed anywhere other than to Congress right now.
    Senator Clinton. Have you had discussions with anyone at 
the Pentagon over your findings?
    Mr. Duelfer. I have not, no.
    Senator Clinton. Has anyone, General, on your staff or on 
behalf of the ISG briefed the report to anyone in the Pentagon?
    General McMenamin. No, ma'am.
    Senator Clinton. Have there been any briefings or any 
discussions of any kind, broadly construed, with anyone at the 
White House or the National Security Council?
    Mr. Duelfer. I have had discussions with a staffer over 
there, yes. Let me be careful. The report has been around and 
circulated for declassification purposes. A lot of people had 
to look at it for source protection reasons and for other 
issues, to make sure it was proper that it all go out publicly.
    Senator Clinton. So the report has been in circulation 
within the government.
    Mr. Duelfer. The report has been in the Intelligence 
Community and, frankly, it has been all over town in bits and 
pieces while people went through it to see if there was 
material in it that should not be out in the public domain.
    Senator Clinton. Mr. Duelfer, with respect to the ongoing 
dispute about aluminum tubes, is it your testimony that finally 
the dispute has been put to rest insofar as it is possible to 
determine the use for the tubes?
    Mr. Duelfer. I have the advantage of being able to just 
make a call on this because the report goes out under my name. 
This aluminum tube issue to me is just, to me it is rockets.
    Senator Clinton. It is rockets?
    Mr. Duelfer. It is rockets.
    Senator Clinton. So if the National Security Advisor on 
Sunday said of the tubes, ``People are still debating this,'' 
is it fair to assume that she has not been briefed or not aware 
of the findings of the ISG?
    Mr. Duelfer. There may be people debating it in various 
places, but they debated it in front of me and I came to a 
conclusion and that is what I put in this report. Again, this 
is not an Intelligence Community report. I have the great 
pleasure of not having to go through an interagency process on 
this and made a call.
    Senator Clinton. But you are representing the best judgment 
of a thousand people who filtered information and evidence up 
to you.
    Let me ask, Mr. Duelfer, did you find any evidence that 
Saddam Hussein either passed weapons or materials or 
information to terrorist networks or that there was a real risk 
of him doing so?
    Mr. Duelfer. We found no evidence that he was passing WMD 
material to terrorist groups, but that really was not a strong 
focus of our work.
    Senator Clinton. So there is no evidence in your report 
that there was such a risk of him doing so?
    Mr. Duelfer. We did not address that.
    Senator Clinton. Is there any other source of information 
other than the work of the ISG that would present evidence 
sufficient for a statement such as that to be made that you are 
aware of?
    Mr. Duelfer. I am unaware of assessments on that, but I am 
not sure I would be aware.
    Senator Clinton. So if this morning President Bush said, 
``There was a risk, a real risk, that Saddam Hussein would pass 
weapons or materials or information to terrorist networks,'' he 
could not be relying upon your exhaustive report for that 
statement, could he?
    Mr. Duelfer. He had the talent and the knowledge existed in 
Iraq, so what Saddam did with it you again have to evaluate.
    Senator Clinton. But he is not talking about passing on 
talent. He is talking about weapons, materials, information.
    Mr. Duelfer. The report describes what we found on the 
ground, which was no stocks. There was a decision to sustain, 
to the extent they could, the intellectual capital. I am trying 
to say exactly what we have said here.
    Senator Clinton. I appreciate that because I think you have 
done a great service to your country, Mr. Duelfer. I sometimes 
fear that we are trying to turn Washington, at least, into an 
evidence-free zone. So the introduction of evidence and facts 
upon which reasonable people, I hope, can reach conclusions is 
a great service. We have seen too little of that. So I am very 
appreciative of the professional way in which you have 
proceeded in the fulfillment of your function.
    Let me also ask you, Mr. Duelfer, as an experienced 
inspector: The conclusions you reached about the decay of the 
attempt to obtain nuclear weapons is of great interest, I 
think, because we now are concerned about North Korea and Iran. 
We obviously were surprised by both India and Pakistan. Those 
states and perhaps even non-state actors who are attempting to 
obtain nuclear weapons is the greatest threat we confront, and 
that was certainly the case before Iraq and now indeed after.
    Do you have any advice about the best way for the United 
States to try to degrade and decay such capacity so that we can 
be assured that proliferation will not pose a threat to us or 
to others around the world?
    Mr. Duelfer. The decay that occurred in the Iraqi program 
was a function of the sanctions and the limits, the 
extraordinary limits, put on this regime. We looked at some of 
the activities of these scientists in areas where we thought 
they might have been serving as a surrogate for nuclear-related 
activities. For example, there was a development program of a 
rail gun, which is an electromagnetic--it is like a magnetic 
device for firing projectiles. We thought that that might be a 
surrogate for development of nuclear expertise. We looked at a 
series of projects like that, but we found that it was 
inconclusive.
    Drawing conclusions that would apply to a country like 
North Korea, it is difficult, frankly, Senator, because they 
are really so different. Iraq invaded another country and lost. 
It was subject to an extraordinary set of U.N. regulations. It 
fought a war with Iran. It has enormous natural resources. It 
has a population which is energetic. They are great builders. 
It is in a different region, where many would expect just 
objectively to see Iraq as a country and its people really 
should be the hub, but by virtue of the leadership the 
difference between what is in Iraq and what could be is huge.
    I do not know. It is difficult for me to draw lessons for 
North Korea. But it is a very good question. Maybe others 
smarter than I can do it.
    Senator Clinton. Thank you so much, both of you.
    Chairman Warner [presiding]. Thank you, Senator.
    I thank the witnesses for their indulgence. We are now 
voting on the intelligence bill, which is of utmost importance. 
I had the last two amendments and I have voted, so I am going 
to remain. There is at least one Senator on the committee who 
desires to come back from the vote since that individual did 
not have an opportunity to ask questions.
    Would you like to take a 3-minute or a 4-minute stretch?
    Mr. Duelfer. Sir, I am used to Baghdad. This is fine.
    Chairman Warner. All right, that is fine. General, as a 
former Marine myself, you just stay where you are.
    General McMenamin. Okay, sir.
    Chairman Warner. Thank you.
    Gentlemen, I think we have had an excellent hearing. There 
are many ways to judge the quality and content of a hearing.
    Senator Pryor. Mr. Chairman, I am sorry. I am back. I have 
been voting and I just got back.
    Chairman Warner. Good. I am in the middle of a speech.
    Senator Pryor. I will get out of your way then.
    Chairman Warner. A number of colleagues have come up to me 
on the floor and in the passageway and expressed tremendous 
satisfaction with your testimony and the fact that you have 
come and the work you have done. General, of course you are the 
new boy on the block, but you are doing your job, too.
    My question at this point is, and then I will yield to my 
good friend here, is the record complete as to the future that 
you estimate for the ISG? You have 1,750 people. I am looking 
at your statement, General, and that is a considerable 
investment of people and capital. The General points out in his 
testimony we have a wide range of other mission areas outside 
Mr. Duelfer's responsibility.
    So I think it would be helpful if you were to describe the 
force. The size is still 1,750. Do you contemplate to keep that 
size? What are the missions, and over what period of time do 
you hope to achieve those missions?
    General McMenamin. Sir, out of that 1,750, about 1,000 of 
them are down in Qatar running the Document Exploitation Center 
(DOCEX). They are the ones that will handle this large influx 
of material we just received. They will triage it, scan it, and 
get it into the national databases. Out of that 1,000 down 
there, about 700 of those are linguists, both CAT-1 and CAT-2 
linguists, who do the scanning, the triage, and things like 
that. So that is a large undertaking down there.
    Up in Baghdad we have about 750 folks. That is broken out 
between a small DOCEX effort that focuses more on some tactical 
intelligence, taking care of things. We have an analytical base 
that encompasses a WMD section, a counterinsurgency section, 
and a political-military section that handles the high-value 
detainees (HVDs) and Captain Speicher investigations. That is 
supported by a small staff, a security element, and a human 
intelligence element that works throughout Iraq.
    Based on the various missions we have, the numbers may 
change depending on the size and the questions that we need to 
follow for Mr. Duelfer's post-report requirements. We are 
looking at how we can better integrate and work with the 
Multinational Force-Iraq's collection efforts also so we can 
support over the next couple of months the requirements that 
Mr. Duelfer identifies and also General Casey's requirements in 
the battle against the counterinsurgency and the 
counterterrorists, especially in these crucial months leading 
up to our elections, their elections, and our inauguration.
    Chairman Warner. That is a very clear statement. I thank 
you.
    You have indicated, Mr. Duelfer, that you are going to 
return, is that correct?
    Mr. Duelfer. That is correct.
    Chairman Warner. You have not specified the duration of 
this next chapter?
    Mr. Duelfer. No, but it is a much diminished task and 
requirement. The General and I have been discussing the 
personnel requirements and so forth, but it is a very much 
smaller activity that will be required.
    Chairman Warner. What work do you deem essential to 
complete this?
    Mr. Duelfer. The criteria I put is I do not want to be 
spending time and basically risking people's lives on things 
which are historical curiosities. My criteria is something 
which could materially affect the future. In other words, if we 
are uncertain about the disposition of some fermenter tanks, 
there remains the possibility that there is a biology 
capability. So that is worth investigating to me.
    Chairman Warner. Of course, there are the facts that will 
be revealed from this very large tranche of new material which 
is down in the document examination.
    I have been recycling Senator Kennedy's question to you, 
Mr. Duelfer, in which he asked you the likelihood that we will 
ever find stockpiles of WMD in Iraq, and you said 5 percent. I 
kept thinking, in reply to my earlier inquiry, you said that 
biological weapons required very little space in which to 
house, store, preserve, or otherwise keep a supply which could 
be extremely detrimental to a great number of people. Am I 
correct about that?
    Mr. Duelfer. Absolutely correct.
    Chairman Warner. So was that included in your 5 percent? 
Are we referring to large caches of WMD in terms of chemical 
primarily?
    Mr. Duelfer. The way I understood Senator Kennedy's 
question was large militarily significant stocks. The risk that 
there is a concealed biological capability of some sort to 
produce, that is the area where I am least confident, frankly. 
But because we have had access to those people we believe were 
involved in the previous biology program, that is where we draw 
some confidence that we think we have run this as well as we 
could. The most important analytical approach on biology is the 
people, because there is a relatively small number. But by the 
same token, it could be two or three people that you never even 
heard of involved in this.
    So sensitivity analysis on this whole endeavor would say 
your weakest ground is in biology.
    Chairman Warner. I thank you very much.
    Now, Senator, we are delighted that you came back from the 
vote. Take your time.
    Senator Pryor. Thank you.
    Chairman Warner. We appreciate very much your staying with 
this hearing.
    Senator Pryor. Thank you very much. I will try to stay 
within my 6 minutes if at all possible.
    I would like to join the chorus of voices here thanking 
both of you for your public service. It is great service to 
this country and even beyond our borders. We really appreciate 
it.
    If I may, Mr. Duelfer, I would like to start with you. I 
read in this morning's ``Washington Post,'' it said, ``As head 
of the ISG, he worked independent of the CIA.'' Is that true? 
You worked independent of the CIA?
    Mr. Duelfer. I am an independent voice. I report to the 
DCI.
    Senator Pryor. Okay. ``Independent of the CIA, and his 
report was not vetted or changed by the agency.'' Is that true?
    Mr. Duelfer. Other than for the declassification process, 
which I described earlier. I controlled the content.
    Senator Pryor. So they did not ask you to change it 
materially, just in terms of the classification aspect?
    Mr. Duelfer. Correct.
    Senator Pryor. Did anyone else ask you, outside the CIA, 
from another agency or the White House or anybody else, to 
change your report?
    Mr. Duelfer. No. I received thoughts, which I solicited 
from people, because I think anybody who has a bright idea I am 
not averse to hearing it. But no one tried to influence the 
outcome. If they knew me, they would realize they would get the 
opposite reaction, if anything.
    Senator Pryor. Did you find any connection between Saddam 
Hussein's regime and September 11? I just want to be very clear 
on this because this has come up in numerous contexts.
    Mr. Duelfer. We were not looking for that, but we found 
none.
    Senator Pryor. Also let me just be clear on this question, 
because this again has come up in this committee and other 
places: Is there any evidence that Saddam Hussein or his regime 
passed WMD to al Qaeda?
    Mr. Duelfer. We saw nothing.
    Senator Pryor. Is there any evidence that he attempted to 
do that or he was contemplating doing that?
    Mr. Duelfer. We saw nothing.
    Senator Pryor. As I understand your testimony from earlier 
when we started in the very beginning, you talked about the 
U.N. sanctions. I do not want to put words in your mouth, but 
as I understand it, in your view they had a very limiting 
effect on his ability to produce WMD?
    Mr. Duelfer. Among the effects of the sanctions were to 
constrain his ability to produce WMD, and that is twofold. One 
is that there were some constraints, particularly in the early 
years, about what he could import, but it also modified his 
behavior because his prime objective was to get rid of those 
sanctions.
    Senator Pryor. So in that sense the sanctions had worked or 
were working. But also what you found, as I understand it, is 
individuals and companies from China, Russia, France, and other 
countries were willingly evading U.N. sanctions?
    Mr. Duelfer. I think the strength of the sanctions was 
clearly decaying, particularly after 1997.
    Senator Pryor. I think you mentioned they were in a free 
fall?
    Mr. Duelfer. I am a skydiver, so free fall is not 
necessarily bad in my book.
    Senator Pryor. Let me ask this. If those companies and 
individuals in China, Russia, and France were trading with 
Iraq, is it possible they could do that without their 
government's knowing that?
    Mr. Duelfer. Yes. We try to be very careful in discussing 
when we know it was a company dealing with Iraq, when we know 
it was a government dealing with Iraq, or when we know it was a 
government-sponsored company dealing with Iraq. We saw evidence 
of all.
    Senator Pryor. Were these violations by these governments 
and companies and individuals aiding Saddam Hussein's attempted 
buildup of WMD? Were they aiding his WMD program?
    Mr. Duelfer. They were certainly aiding his weapons 
infrastructure. They were certainly aiding his long-range 
ballistic missile capability. They were certainly aiding in the 
sense that the domestic infrastructure was improving and that 
would shorten a breakout capability should he decide on that.
    But we did not see specific imports, for example related to 
a biological program, dedicated to a biological program, 
dedicated to a nuclear program, or dedicated to a chemical 
program.
    Senator Pryor. I see. Now I want to ask you a question that 
I know you will get asked by the press, if you have not 
already. It is possible that you already have been asked this 
today. President Bush, when he was asked whether there were 
chemical and biological weapons that existed in Iraq prior to 
Operation Iraqi Freedom, said: ``Wait until Charlie gets back 
with the final report.''
    My first question is, are you Charlie?
    Mr. Duelfer. If he says so.
    Senator Pryor. The second question is, just so I understand 
your testimony, you did not find evidence of chemical or 
biological weapons at the dawn of Operation Iraqi Freedom?
    Mr. Duelfer. We did not find stocks of either chemical or 
biological weapons.
    Senator Pryor. Is your report in any way inconsistent with 
David Kay's findings?
    Mr. Duelfer. No. In some cases we refined some of the 
material he presented. We learned a bit more about some of the 
things that he originally found. We were able to flesh out some 
of the organizations. For example, he first found some of these 
Muhabarat labs and I think we were able to get a better 
understanding of what they were about.
    Senator Pryor. In other words, you fleshed out his report?
    Mr. Duelfer. His report was really a snapshot of what they 
found. I think this is more of a synthetic picture of what was 
going on.
    Senator Pryor. Comprehensive view?
    Mr. Duelfer. It is really not inconsistent with what he----
    Senator Pryor. Okay. Let me ask about a scenario that 
someone referred to a few moments ago, and you actually have it 
in your written statement. Maybe I should ask General McMenamin 
about this.
    There is a scenario out there that I think we in Congress 
are concerned about. What if insurgents team up with Saddam 
Hussein-regime chemical weapons experts? What if they team up 
and could cause quite a bit of damage there? Here is the 
question I want to ask the General: Do we have, in your view, 
sufficient resources on the ground in Iraq to prevent this?
    General McMenamin. I would say, for the military 
commanders, the intelligence effort that we have to try to 
identify these people is sufficient at the moment. One of the 
more successful programs that the embassy is running is the 
scientist redirection program. We are working with the embassy 
and the ministry of science and technology to actually employ 
some of these former regime scientists either here in the 
United States or in Iraq, which will also help the issue.
    Senator Pryor. The answer to my question then is what? Do 
we have sufficient resources on the ground?
    General McMenamin. Yes, sir.
    Senator Pryor. We do. Are we doing everything we can do to 
make sure that scenario does not happen?
    General McMenamin. Sir, any time we get any notification of 
any type of chemical weapon, we send a team out. We interview 
sources, we run down sources. We have run down everything from 
epoxy glue to baby powder to crude schematic drawings of 
missile systems that somebody took out of a book just so they 
can get some money. So we investigate every potential lead.
    Senator Pryor. Thank you.
    Mr. Duelfer, I am really out of time, but let me ask you 
one question.
    Chairman Warner. Senator, you go ahead and take another 
minute or two.
    Senator Pryor. Thank you, Mr. Chairman.
    Is this your final report? Are you planning on doing 
another report?
    Mr. Duelfer. This is a comprehensive report. I choose that 
word carefully because I think, as I mentioned, there are a 
couple little remaining issues where I think we can usefully 
develop more information, and if we do and if it is beneficial 
we will produce short addendums to this report.
    Senator Pryor. I would like to follow up on Senator Lindsey 
Graham's question a few moments ago as well. He mentioned the 
unaccounted for WMD. You may not be able to say how much is 
unaccounted for in this arena but I would like at some point to 
get an answer to that. If you can say it here, I would like to 
hear it.
    In your opinion, what happened to the WMD that is 
unaccounted for? What is your view of that?
    Mr. Duelfer. The unaccounted for weapons really derive from 
the weapons which Iraq declared it had but was not able to 
verify the disposition thereof. There were 550 155-millimeter 
artillery shells with mustard agent. They were not able to 
account for those to the U.N. What happened to them? We may 
never really know.
    But as we find these residual chemical rounds, I think, 
about 53 in the past several months we found, some of these 
unaccounted for weapons may just turn up that way. They are not 
a significant threat.
    Senator Pryor. Let me just be clear on that. These weapons 
that you found, the mustard gas, et cetera, are pre-1991?
    Mr. Duelfer. They were produced before 1991, that is 
correct.
    Senator Pryor. This really is my last question because I am 
indulging on the chairman's time here. If I can follow up with 
Senator McCain's question, he says, basically we had two 
choices in Iraq. We could either keep the status quo or we 
could attack Saddam Hussein. I am not trying to be overly 
simplistic, but I think that is essentially what he said.
    But would you agree with me that actually we did have a 
third option, and that is that we could have the world 
rededicate ourselves to the sanctions? In other words, to use 
your term, to stop the free fall, to plug the holes of the 
leaky--and there has been a lot of analogies used today, but 
the leaky vessel, whatever we called it earlier? Could we not 
have done that and continued to thwart his ability to create 
WMD?
    Mr. Duelfer. Sir, I am really not in a position to answer 
that question. Just one thing I would point to, though, is the 
sanctions had a lot of effects far beyond addressing the Iraqi 
WMD capability. When you see what happened to the Iraqi 
country, particularly now that we are there, you have to take 
that into account as well.
    Senator Pryor. Mr. Chairman, that is all I have. Thank you.
    Chairman Warner. Thank you very much, Senator, for your 
participation.
    What has become of the scientists who worked on 
particularly the WMD, but biological programs as well? Do you 
have an accounting for how many of them are around and what 
they are doing? Is there some program to discourage them from 
working with some other organization, terrorists, or leaving 
the country and spreading their knowledge into hands which 
would bring along an adverse situation?
    Mr. Duelfer. Sir, we have a fair idea of where the 
prominent ones are. Some of them are in jail. Some of them are 
employed in Iraqi ministries. As General McMenamin mentioned, 
there is a program that the United States is sponsoring to 
employ some of these individuals.
    Frankly, it has been my experience that most of these 
people would rather pursue other lines of business, but they 
want to pursue a line of business that allows them to earn an 
income. Most of these people did not grow up thinking, gee, 
when I grow up I want to make anthrax. They were kind of 
channeled into that by a very odd regime.
    But I think for the most part we know where most of the 
biological specialists are and they are in Iraq.
    Chairman Warner. You know what efforts have been made on 
the nuclear programs in the former Soviet Union through the 
Nunn-Lugar programs. We have expended a lot of the taxpayers' 
funds to get a handle on where that material is and what is 
being done to keep it out of the hands of third parties. Russia 
has been extremely cooperative, I think, and we are continuing 
to press forward.
    Do we need a similar program here?
    Mr. Duelfer. Sir, I think that there is a State Department 
program along those lines. They have certainly come to us with 
requests for who the key individuals are. We have provided that 
information to them. But it is outside of the direct mandate of 
the ISG.
    General?
    General McMenamin. Sir, our chem-bio unit, that does all 
the field testing, has worked a very good relationship between 
the embassy and the ministry of science and technology, and we 
actually have a very open dialogue with them to identify 
certain scientists who are either needed back here for the 
Department of Homeland Security or can be of use in Iraq.
    Chairman Warner. I thank you.
    What has been your observation about the prisoners in 
custody and to the extent that they have been forthcoming in 
providing us any information that has been of value in your 
work? I want to separate this, of course, from the situation 
with the Abu Ghraib prison and the military situation. That is 
slowly working its way through the judicial system of the 
Department of the Army, and this committee is interested in 
that as well.
    But what they call the deck of cards, they are kept in 
facilities where there is an entirely different type of 
treatment being rendered.
    Mr. Duelfer. That is correct. Frankly, I think some of them 
have been very helpful. Some of them have not. It is my opinion 
that very little purpose is served by detaining some of them.
    Chairman Warner. You conveyed that to the appropriate 
authorities, your judgment on that?
    Mr. Duelfer. That is correct.
    Chairman Warner. That is good. I think that is helpful. So 
some of it has been fruitful from time to time?
    Mr. Duelfer. Some of them have been very helpful, and in 
fact I think it would be very interesting when some of them are 
released for them to read this report and have a comment on it.
    Chairman Warner. Lastly, you have been very helpful to the 
committee in giving your perspectives on Iraq and the future of 
Iraq, drawing on your many years of experience with the people. 
I am going to speak for myself. It seems to me the greatest 
hope for fulfilling the mission of giving the Iraqi people the 
freedom that they deserve, and hopefully want, is through the 
training of significant numbers of military, police, 
paramilitary, border, and the like to secure their country.
    We hosted Prime Minister Allawi, who is a very impressive 
man, and I had the opportunity to directly ask him questions 
along this line. The anticipation is that the numbers, which 
are currently 60,000 to 65,000, could well go to 100,000 by the 
time the elections are held in January.
    But as you study that culture, do you feel that sufficient 
numbers of people in Iraq will step forward, take on those 
responsibilities of providing for their own security, and in 
numbers which hopefully will enable our country to begin some 
phasedown of its force structure? You see these tragic 
situations where those lining up as recruits are the targets of 
suicide bombers. Yet those lines seem to form the next day.
    So I would be interested in your views on that, Mr. 
Duelfer.
    Mr. Duelfer. Sir, it is obviously unrelated to my report, 
but I have spent a lot of time there. My sense is that what 
they desire most is of course security. It does not take a 
genius to figure that out. If they have a structure to step 
into and they believe it is their structure, not a foreigner's 
structure, and that that structure is fair and represents Iraq, 
I think that will happen.
    I had a lot of very candid conversations with many Iraqis, 
even under Saddam. There are lots of discussions about the 
different tribes, clans, the Shia, and the Sunni. Many of them 
made the point to me, they said: Yes, over the last few decades 
we have acquired our nationality. We are Iraqis first. The way 
Saddam disbursed favor and so forth, he tended to reward groups 
and so forth, and he fended off threats to himself that way.
    But I think if there is a structure that is identified as 
an Iraqi structure, that is seen as something which will 
contribute to their future, that there is a true possibility 
that that will happen.
    Chairman Warner. I thank you very much.
    Senator Levin. Thank you.
    Senator Levin. Thank you.
    Just a few questions, Mr. Duelfer. First on the UAV issue. 
As I read your findings on page 42, it is that, ``Evidence 
available to the Iraq Survey Group concerning the UAV programs 
active at the onset of Operation Iraqi Freedom indicates these 
systems were intended for reconnaissance and electronic 
warfare.'' Does that accurately state your finding?
    Mr. Duelfer. That reflects our assessment.
    Senator Levin. Did you find any evidence in the documents 
that you looked at that Iraq had UAVs capable of or were 
intended to carry WMD?
    Mr. Duelfer. In their possession, no.
    Senator Levin. Relative to chemical weapons, on I believe 
page 1 of the chemical section, your report says that, ``While 
a small number of old abandoned chemical munitions have been 
discovered, the Survey Group judges that Iraq unilaterally 
destroyed its undeclared chemical weapons stockpile in 1991.''
    Mr. Duelfer. Yes, that is correct.
    Senator Levin. You also found that, relative to the sites, 
the satellite photos of sites that were stated to be suspicious 
chemical weapons storage sites prior to the war, on page 3 of 
your report ``alternate plausible explanations for the 
activities noted other than CW-related activities.'' Is that 
accurate?
    Mr. Duelfer. Yes. This is referring to Secretary Powell's 
presentation to the U.N. Security Council, in particular the 
site called Musa-Ib, and there was some imagery of that. What 
we found on the ground was that what the Iraqis were doing 
there was unrelated to chemical weapons.
    Senator Levin. Senator Pryor asked you about any evidence 
of a relationship to al Qaeda in the documents that you looked 
at, and I gather you answered in the negative to that question. 
How many documents did you look at? I do not know whether to 
ask you, General, or who I look at for the answer to this, 
because you had some data in your prepared statement about 
numbers of documents, number of people. So whoever wants to 
answer that question.
    General McMenamin. Sir, we went through over 40 million 
pages of documents.
    Mr. Duelfer. I would hasten, we have also now acquired a 
like number.
    Senator Levin. So you have another 40 million more 
documents to look at.
    Mr. Duelfer. Another squillion, to put it in analytical 
terms. I am sorry. A lot.
    Senator Levin. A lot.
    But at least in the 40 million you have gone through, there 
was no such evidence, is that correct?
    Mr. Duelfer. The approach that it has gone through is a 
triage system. We have not put eyeballs on every page and 
looked at that. But the process that we have gone through has 
not yielded anything like that.
    Senator Levin. Then just one other question. I am trying to 
find out whether it was a conversation that you had or your 
folks had about his major concern. Apparently in the report you 
were quoted as saying that you were approached ``multiple times 
during the late 1990s by senior Iraqis with the message that 
Baghdad wanted a dialogue with the United States.''
    Mr. Duelfer. Myself among others, that is true.
    Senator Levin. ``That Iraq was in a position to be 
Washington's best friend in the region?''
    Mr. Duelfer. That is something that a senior Iraqi said to 
me, that is true.
    Senator Levin. What came of those probes?
    Mr. Duelfer. Nothing. The policy was not to have a 
dialogue, as I understand it, with Baghdad at the time. But 
again, I was not part of those policy decisions. I just was the 
recipient. They saw me as a convenient American to talk to.
    Senator Levin. While we are waiting for the chairman, page 
1 of the biological section says that ``Iraq would have faced 
great difficulty in reestablishing an effective biological 
warfare agent production capability and that any attempt to 
create a new biological warfare program after 1996 would have 
encountered a range of major hurdles. The years following 
Operation Desert Storm brought a steady degradation of Iraq's 
industrial base. New equipment and spare parts for existing 
machinery became difficult and expensive to obtain. Standards 
of maintenance declined. Staff could not receive training 
abroad and foreign technical assistance was almost impossible 
to get. Additionally, Iraq's infrastructure and public 
utilities were crumbling.''
    Is that an accurate reading of your page 1?
    Mr. Duelfer. In the mid-1990s that is true. But with the 
improvements in Iraq's domestic industrial circumstances as the 
1990s proceeded, it became less of a hurdle. It also is 
addressing a program on the scale that they had before the war, 
which was a very substantial program. We are not really 
addressing there the small types of terrorist type of concerns 
that so often people talk about with respect to biological 
weapons.
    Senator Levin. Thank you.
    Chairman Warner. Forgive me, I am trying to handle a matter 
on the floor at the same time.
    Senator Levin. I do not know if Senator Pryor had 
concluded. I did not have the gavel.
    Chairman Warner. Thank you. As I said, I thought we have 
had a very good hearing, and I wanted to personally come back 
and thank you for the service that you have rendered, each of 
you, and continue to render. This committee would be very 
anxious to receive such subsequent reports and opinions that 
you might have, as we intend to continually monitor this 
important subject.
    Thank you very much. The hearing is adjourned.
    [The complete Table of Contents of the ``Comprehensive 
Report of the Special Advisor to the DCI on Iraq's WMD'' 
follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
    [Whereupon, at 5:48 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
